FINDINGS AND RECOMMENDATIONS TO THE
        CHIEF FINANCIAL OFFICER
    AS A RESULT OF AN AUDIT OF THE
      U.S. DEPARTMENT OF LABOR’S
   PRINCIPAL FINANCIAL STATEMENTS
            September 30, 2001




                           U.S. Department of Labor
                           Office of Inspector General
                           Report Number: 22-02-004-13-001
                           Date Issued: March 27, 2002
                                                         CFO FINDINGS AND RECOMMENDATIONS


ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

DEPUTY INSPECTOR GENERAL’S REPORT ON THE FINDINGS
AND RECOMMENDATIONS TO THE CHIEF FINANCIAL OFFICER
RELATED TO THE FY 2001 CONSOLIDATED AUDIT . . . . . . . . . . . . . . . . . . . . . . . . 1

FINDINGS AND RECOMMENDATIONS RELATED TO
REPORTABLE CONDITIONS

  1. UNEMPLOYMENT TRUST FUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
  2. PROPERTY AND EQUIPMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
  3. ACCOUNTING FOR GRANTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
  4. WAGE AND HOUR’S BACK WAGE SYSTEM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
  5. WAGE AND HOUR’S CIVIL MONETARY PENALTIES SYSTEM . . . . . . . . . . . . . . . . . 29
  6. FECA PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
  7. PERFORMANCE MEASURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
  8. FUNDS WITH TREASURY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

FINDINGS AND RECOMMENDATIONS RELATED TO
MANAGEMENT COMMENTS
  1. GRANT ACCOUNTING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
  2. PROPERTY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40
  3. JOB CORPS DATA CENTER OPERATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
  4. ACCOUNTING FOR NONPAYROLL S&E ACCOUNTS PAYABLE . . . . . . . . . . . . . . . . 45
  5. UNEMPLOYMENT TRUST FUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
  6. FECA PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48
  7. PROCUREMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53
  8. BLACK LUNG DISABILITY TRUST FUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60
  9. FINES AND PENALTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65
  10. MISCELLANEOUS REVENUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66
  11. PERFORMANCE MEASURES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67
  12. DEBT MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72




OIG Report No. 22-02-004-13-001                                                                                                  Page i
                                        CFO FINDINGS AND RECOMMENDATIONS


                                       ACRONYMS
ACPS       Automated Compensation Payment System
ALC        Account Location Code
APO        Accountable Property Officer
BAM        Benefit Accuracy Measurement
BCDS       Back Wage Collection and Disbursement System
BLAS       Black Lung Accounting System
BLBM       Black Lung Benefits Manual
BLDTF      Black Lung Disability Trust Fund
BLS        Bureau of Labor Statistics
BPS        Bill Payment System
BQC        Benefits Quality Control
BTS        Back Wage Tracking System
CAMO       Capitalized Asset Management Officer
CASU       Centralized Administrative Support Unit
CATARS     Capitalized Asset Tracking and Reporting System
CFO        Chief Financial Officer
CFR        Code of Federal Regulations
CMP        Civil Monetary Penalties
CY         Calendar Year
DCMWC      Division of Coal Mine Workers Compensation
DFEC       Division of Federal Employees' Compensation
DHHS       U.S. Department of Health and Human Services
DLMS       Department of Labor Manual Series
DOL        U. S. Department of Labor
DOLAR$     Department of Labor Accounting and Related Systems
EEOICP     Energy Employees’ Occupational Illness Compensation Program Act
EIMS       Electronic Information Management System
ESA        Employment Standards Administration
ETA        Employment and Training Administration
FAR        Federal Acquisition Regulations
FASABFederal Accounting Standards Advisory Board
FECA       Federal Employees' Compensation Act
FMSC       Financial Management Service Center
FY         Fiscal Year
GPRA       Government Performance and Results Act
IMIS       Integrated Management Information System
JCC        Job Corps Center
JFMIP      Joint Financial Management Improvement Program
JTPA       Job Training Partnership Act
OASAM      Office of the Assistant Secretary for Administration and Management
OC         Office of the Comptroller
OCFO       Office of the Chief Financial Officer
ODI        OSHA Data Initiative
OLRFI      Office of Labor Racketeering and Fraud Investigations
OIG        Office of Inspector General
OMAP       Office of Management and Planning

OIG Report No. 22-02-004-13-001                                                  Page ii
                                       CFO FINDINGS AND RECOMMENDATIONS

OMB         Office of Management and Budget
OMS         Outcome Measurement System
OSHA        Occupational Safety and Health Administration
OWCP        Office of Workers' Compensation Programs
OWS         Office for Workforce Security
PMS         Payment Management System
PV          Public Voucher
PWBA        Pension and Welfare Benefits Administration
RCC         Record Classification Code
RMO         Responsible Mine Operator
SESA        State Employment Security Agency
S&E         Salaries and Expenses
SCE         Senior Claims Examiner
SFFAS       Statement of Federal Financial Accounting Standards
SFO         Servicing Finance Office
UIDV        Unemployment Insurance Data Validation
UIS         Unemployment Insurance System
USC         United States Code
WCF         Working Capital Fund




OIG Report No. 22-02-004-13-001                                   Page iii
Mr. Samuel T. Mok
Chief Financial Officer
U.S. Department of Labor
Washington, DC 20210



                         Deputy Inspector General’s Report on the
              Findings and Recommendations to the Chief Financial Officer
              Related to the FY 2001 Consolidated Financial Statement Audit


We have audited the Principal Statements of the United States Department of Labor (DOL) as of and
for the year ended September 30, 2001, and have issued our report thereon dated January 11, 2002.
We conducted our audit in accordance with generally accepted auditing standards; the standards
applicable to financial statement audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No.
01-02, “Audit Requirements for Federal Financial Statements.”

In planning and performing our audit, we considered DOL’s internal control over financial reporting by
obtaining an understanding of the Department’s internal control, determined whether internal controls
had been placed in operation, assessed control risk, and performed tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The objective
of our audit was not to provide assurance on internal control. Consequently, we do not provide an
opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be reportable conditions. Under
standards issued by the American Institute of Certified Public Accountants, reportable conditions are
matters coming to our attention relating to significant deficiencies in the design or operation of the
internal control that, in our judgment, could adversely affect the organization’s ability to record,
process, summarize, and report financial data consistent with the assertions of management in the
financial statements. Material weaknesses are reportable conditions in which the design or operation of
one or more of the internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial statements being audited
may occur and not be detected within a timely period by employees in the normal course of performing
their assigned functions. Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected. We noted certain matters, discussed in the
following pages, involving the internal control and its operations that we consider to be reportable
conditions. However, none of the reportable conditions is believed to be a material weakness.
                                            CFO FINDINGS AND RECOMMENDATIONS

With respect to internal control related to performance measures reported in the Department’s FY 2001
Performance and Accountability Report, we obtained an understanding of the design of significant
internal controls relating to the existence and completeness assertions and determined whether they
have been placed in operation, as required by OMB Bulletin No. 01-02. Our procedures were not
designed to provide assurance on internal control over reported performance measures, and,
accordingly, we do not provide an opinion on such controls.

This report does not contain current or prior year findings and recommendations pertaining to our audit
of the Department’s general controls and security over EDP systems that support the financial
statements in accordance with GAO audit guidelines. A separate report was issued to the Chief
Information Officer containing EDP related findings and recommendations for resolution.

The Deputy Inspector General’s Report, which expresses our opinion on the fair presentation of DOL’s
Fiscal Year 2001 principal financial statements, and our reports on internal control and compliance
with laws and regulations, are presented in the Department’s FY 2001 Performance and Accountability
Report. In order to provide information to management that could help in the development of responses
and corrective actions for the instances of noncompliance, reportable conditions and other conditions
noted (Management Advisory Comments), we are providing the following detailed findings and
recommendations to the Chief Financial Officer (CFO). This report is intended solely for the
information and use of the management of the Department of Labor, OMB and Congress, and is not
intended to be used and should not be used by anyone other than these specified parties.




ELLIOT P. LEWIS
Acting Deputy Inspector General for Audit

January 11, 2002




OIG Report No. 22-02-004-13-001                                                                 Page 2
                                            CFO FINDINGS AND RECOMMENDATIONS


The following chart summarizes the open recommendations by area of concern and the year first identified:

        AUDIT AREA            FY    FY       FY     FY     FY     FY      FY     FY      FY     FY Total
                             1992   1993    1994   1995    1996   1997   1998   1999    2000   2001 Open

Crosscutting Issues:

Debt Management                                                            1                           1

Funds with U.S. Treasury                                                   1             1             2

Accounting for Grants                        1       1      1       1             3      3      1      11

Property and Equipment                                                            1             4      5

Procurement                                                                1      4      1             6

Accounts Payable                                                                                1      1

Fines And Penalties                                                               1                    1

Miscellaneous Revenues                                                            1                    1

Working Capital Fund Cost                                                                1             1
Allocation

Performance Measures          6       1      1       1                                                 9

Program Specific Issues:

Wage and Hour’s Back Wage             1                             1                                  2
Systems

Wage and Hour CMP Systems             2                             3                                  5

FECA Program                                 2              1       2             2                    7

Black Lung Program                                                         5      4                    9

Job Corps Program                                                                               2      2

Unemployment Trust Fund                                             1                    2      4      7

Total Open Recommendations    6       4      4       2      2       8      8     16      8      12     70




OIG Report No. 22-02-004-13-001                                                                      Page 3
                                             CFO FINDINGS AND RECOMMENDATIONS


Reportable Conditions


1.        Unemployment Trust Fund
          Current Year Findings and Recommendations

     a.   Benefits Accuracy Measurement (BAM)

          The Office of Workforce Security (OWS) has two systems which measure benefit
          overpayments for the UI program. These systems play an important role in detecting and
          preventing overpayment of UI benefits, and as such are part of management’s controls to
          ensure that UI resources are used consistent with the agency mission and are safeguarded from
          waste, fraud, and mismanagement.

          Each state has a Benefit Payment Control (BPC) system to identify and investigate benefit
          overpayments. The BPC process identifies over $600 million (annually) of overpayments,
          which are established as receivables for collection. These overpayments are reported by states
          on the ETA Form 227 and are used by DOL to establish the amount recorded as a receivable
          for financial reporting purposes. The states reported overpayments for FY 2001 and FY 2000
          of approximately $669 and $599 million, respectively.

          The states also have a Benefits Accuracy Measurement (BAM) unit. The BAM unit uses
          statistical sampling techniques to determine the accuracy of UI benefit payments and project
          these sample results to the entire benefit payment universe. Each state’s BAM unit draws a
          weekly sample of benefit payments (annual sample of approximately 25,000 claims), reviews
          the records, and contacts the claimant, employers, and third parties (either by telephone,
          person, or by fax) to verify all information pertinent to the amount paid for the sampled week.
          According to OWS, the BAM projections, at the national level, are at a 95 percent confidence
          level plus or minus a sampling error less than one percentage point. BAM management
          concludes that their projections have a very high degree of accuracy, due to the sampling
          precision achieved and the care taken to ensure that samples are randomly selected and are
          tested consistently throughout the country. BAM results are reported each year in the UI
          Performs annual report.

          The BAM unit projected the following overpayments during the last five calendar years:

                     Calendar             Projected                      Projected
                        Year            Overpayments                 Overpayment Rate
                      1997                $ 1.6 billion                   8.7 %
                      1998                $ 1.5 billion                   8.5 %
                      1999                $ 1.8 billion                   9.1 %
                      2000                $ 1.7 billion                   8.5 %
                   FY 2001 (preliminary) $ 2.3 billion                    8.4 %

          Over the past 5 years, the BAM data reflect little change in the UI overpayment rates. In fact,
          the overpayment rate has remained relatively flat since 1989 at about 8.5 percent. This data


OIG Report No. 22-02-004-13-001                                                                    Page 4
                                         CFO FINDINGS AND RECOMMENDATIONS

      indicate a lack of significant improvement in the states’ methods and systems for preventing
      overpayments. Furthermore, while the BAM national average for overpayments is around 8.5
      percent, some states reflect significantly higher overpayment rates. For example, in CY 2000
      there were 20 states with overpayment rates in excess of 10 percent, of which 7 exceeded 15
      percent.

      According to management, the BAM payment accuracy data is a management tool that states
      can use to identify areas of UI program operations that could be improved. Due to differences
      in state UI laws, the BAM accuracy data are not considered comparable between states and,
      accordingly, are not used to identify the need for corrective action or to measure improvements
      (or lack thereof) to existing benefit payment systems. Conversely, the BAM data are not used
      to identify states that are doing a good job of preventing and detecting overpayments for
      purposes of developing best practices or sharing successful methodologies.

      This policy appears contrary to information published in the UI Performs CY 2000 Annual
      Report, page 9, which states the following: “BAM is a diagnostic tool used to identify
      payment errors and measure the effect of previously initiated corrective actions. . . . The BAM
      program gathers information to assist States in developing program improvement plans to
      correct problems in the UI benefit payment systems and to enable them to measure the effects
      of implementing those plans. . . . The BAM methodology is a sound means for measuring the
      accuracy of State UI administration, and thus, BAM is an integral part of the Secretary’s
      oversight system. It is the major vehicle by which the Department oversees the accuracy of
      State UI benefit payments.”

      We also noted that the BAM data reflect significantly higher overpayments than those
      established and reported by the BPC, $2.3 billion versus $669 million, respectively. We
      discussed this difference at length with management, and were told that a significant portion of
      the $2.3 billion in overpayments represent instances which are either non-recoverable or are
      not detectable given current operating procedures. They provided the following information.

              Non-recoverable overpayments              $ .484 billion    21%
              Overpayments which are not
               detectible using current procedures         .859 billion   38%
              Subtotal                                    1.343 billion   59%
              Overpayments considered to be
                detectable and recoverable                 .941 billion   41%

              Total projected overpayments              $ 2.284 billion 100%

      According to ETA, non-recoverable overpayments include cases which cannot be recovered
      under state law, such as when the statute of limitations has expired. Overpayments which are
      not detectable using current procedures include certain “cause” categories (e.g., work search
      issues), which can only be cost-effectively monitored/investigated on a sample basis. These
      types of overpayments could be recovered by states if identified, but detection on a routine
      basis is not feasible. Other recoverable overpayments include overpayments that BPC activities
      could, given sufficient resources, be expected to identify.




OIG Report No. 22-02-004-13-001                                                                Page 5
                                         CFO FINDINGS AND RECOMMENDATIONS
      We understand that the difficulty involved in detecting overpayments will vary depending on
      the underlying cause, and that certain types of overpayments require more time and resources
      to detect than others. However, the loss of UI resources due to overpayments deemed non-
      recoverable or not-detectable, over $1 billion in FY 2001, requires increased DOL involve-
      ment. After discussing this issue with management, we conclude that additional efforts should
      be made in those areas where there is room for improvement, such as the development of best
      practices, the identification of overpayments prior to expiration of the statute of limitations,
      and the timely pursuit of new hire directories and access to national databases.

      Since the projected overpayments for FY 2001 exceed $2 billion, a significant amount, and the
      overpayment rates reflect little improvement in internal control at the states in the past 12
      years, we believe there is a need for improvement in the states’ internal controls over UI
      benefits payments. While management is taking great efforts to measure benefit
      overpayments, it is evident that these efforts have not resulted in reduced overpayment rates or
      improved safeguarding of trust fund assets. The effect of not improving ETA controls over
      benefit payments and overpayment detection, will be the continued loss of significant trust fund
      resources.

      According to OMB A-123, management is required to implement, assess and improve
      management controls over their programs, and to implement corrective actions in response to
      deficiencies noted. This circular states:

              Section I. Resources must be used consistent with agency mission, in compliance
              with law and regulation, and with minimal potential for waste, fraud, and misman-
              agement.

              Section III. Agency managers should continuously monitor and improve the
              effectiveness of management controls associated with their programs.

              Section IV. Agency managers are responsible for taking timely and effective action
              to correct deficiencies identified by the variety of sources discussed in Section III.
              Correcting deficiencies is an integral part of management accountability and must
              be considered a priority by the agency.

      In a recent study conducted by GAO, Strategies to Manage Improper Payments, Learning
      from Public and Private Sector Organizations, GAO found the following:

              Despite a climate of increased scrutiny, most improper payments associated with
              federal programs continue to go unidentified as they drain taxpayer resources away
              from the missions and goals of our government. They occur for many reasons
              including insufficient oversight or monitoring, inadequate eligibility controls, and
              automated system deficiencies. However, one point is clear based on our study–the
              basic or root causes of improper payments can typically be traced to a lack of or
              breakdown in internal control.




OIG Report No. 22-02-004-13-001                                                                Page 6
                                          CFO FINDINGS AND RECOMMENDATIONS

       We recommend that the Chief Financial Officer and the Assistant Secretary for
       Employment and Training ensure that OWS management:

  1.   Develop a written plan to utilize the data produced by the BAM unit as the impetus for
       improving internal controls over the benefit payment process. Specifically, the plan
       should address:

       -       procedures to analyze overpayment rates for purposes of identifying statistically
               valid improvement, or lack thereof, in overpayment rates at the national and state
               levels;
       -       methods to assist the states in developing system improvements, such as best
               practice studies; and
       -       improved monitoring of the states to ensure that corrective actions are imple-
               mented when necessary.

  2.   Accelerate efforts to pursue wage and employment information at the state and national
       levels which will assist ETA in preventing overpayments and detecting overpayments on a
       timely basis, such as the social security database and state and national directories of new
       hires.

  3.   Compile BPC overpayment data in categories consistent with those used for the BAM
       data, in order to identify which types of overpayments are not being detected by the BPC
       and use the data to prioritize the areas most in need of improvement.

  4.   Perform and document cost benefit analysis for those overpayments identified as not
       being detected by the BPC, in order to determine whether or not additional resources
       should be dedicated in these areas.

       Management’s Response:

       ETA funds one staff position in each state to analyze payment accuracy rates and identify
       potential improvements. Analysts in the Office of Workforce Security develop extensive
       analyses of BAM data. In addition, each year OWS publishes analyses of the BAM accuracy
       rates, including breakouts by cause and responsibility and year-to year changes in state
       overpayment and underpayment rates. OWS also responds to ad hoc requests for BAM data
       by producing analytical summaries and reports

       For a number of years there have been few new techniques available to improve the prevention
       and detection of overpayments in the recoverable - detectable cause categories. However, there
       are two promising techniques that are currently being pursued. One is funding to promote
       state use of in-state new hire data, and the second is an on-line verification of SSNs, names,
       dates of birth, and any social security payment amounts by states with the Social Security
       Administration. ETA met with SSA officials in June and staff are working to facilitate a
       reciprocal data exchange between states and SSA.

       In 2001 ETA sponsored a conference where BPC activities were highlighted that focused on
       best practices for improving the financial integrity of state UI systems. Over 200 state staff
       and federal staff including 22 IG representatives participated in this highly rated conference.
       ETA also sponsored another conference in 2001 that focused on improving the quality of state

OIG Report No. 22-02-004-13-001                                                                Page 7
                                          CFO FINDINGS AND RECOMMENDATIONS
      determinations related to qualifying and eligibility for UI benefits. About 200 state and federal
      staff participated in that conference.

      When states fail to meet one of the required performance criteria, corrective action plans are
      required and progress is monitored by regional offices. There are no criteria related to
      overpayment rates because the aggregate data are not comparable among states.

      ETA will continue to promote state use of in-state new hire data, and to facilitate on-line
      verification of SSNs, names, dates of birth, and any social security payment amounts by states
      with the Social Security Administration. ETA met with SSA officials in June and staff are
      working to facilitate a reciprocal data exchange between states and SSA.

      ETA will examine the costs and possible benefits of this recommended reporting change.

      ETA will undertake these analyses. There are two groups of overpayments not detected by
      BPC—one group is not detectable through normal operating procedures or BPC activities.
      The other group is made up of those that are detectable through BPC activities, but which are
      not being detected. Each is discussed briefly below.

      Non Detectable. As an indicator of the resources that would be required to audit each UI
      beneficiary’s claim in the detail that the BAM investigation does, we know that each sampled
      case costs approximately $434. The annual cost of conducting a BAM-type audit for all UI
      beneficiaries would be about $3.9 billion. The amount of overpayments estimated by BAM as
      not detectable using normal operating procedures -- but detectable through BAM audits--
      totaled $859.8 million in FY 2001. Detectable. Analysis conducted in early 1996 indicated
      approximately $270 million was needed to support BPC and tax audit activities. Due to
      budget constraints, ETA requested $89 million in 1998, but no funds were appropriated. For
      each of the next two fiscal years $91 million was requested and appropriations of $20 million
      and $35 million respectively were made.

      OIG Conclusion:

      The information presented in management’s response was provided during the audit, and was
      considered in developing our final conclusions and the resulting recommendations. We
      understand that Federal agencies are tasked to operate and monitor programs, such as the UI
      program, within the constraints of available resources. However, this should not preclude
      program managers from continually evaluating and improving existing practices and
      methodologies. After in-depth discussions with management, we concluded that there is room
      for improvement in the existing practices relative to UI overpayment prevention and detection.
      These recommendations are unresolved. Resolution is dependent upon submission of a
      detailed corrective action plan with appropriate dates for implementation.

      Prior Year Finding and Recommendation

      Unemployment benefit payments reported by States on form 2112 and recorded in
      DOLAR$ were understated.

      In our FY 2000 audit report (OIG Report No. 22-01-006-13-001), we reported certain
      deficiencies in the reconciliation process for unemployment benefits reported by the states and

OIG Report No. 22-02-004-13-001                                                                 Page 8
                                         CFO FINDINGS AND RECOMMENDATIONS
       those reflected on Treasury statements. We found that ETA’s reconciliation process provided
       only Federal funds data from the Financial Management Reporting System (FMRS) to the
       states for reconciliation purposes, and that OCFO reconciliations identified significant
       misstatements in advances to states and state unemployment benefit expenses. Furthermore,
       states reported drawdowns net of the Federal income tax paid on their behalf by Treasury and
       reported benefit payments net of Federal income taxes withheld from claimant payments on the
       State benefit account shown on ETA form 2112. The net benefit payments were recorded in the
       Unemployment Insurance Data Base (UIDB) and used to reduce gross State drawdowns
       recorded in DOLAR$. We made the following recommendations:

       We recommended that the Chief Financial Officer and the Assistant Secretary for
       Employment and Training ensure that:

   •   Reconciliations using FMRS and Treasury data are performed timely and include
       comparisons of drawdowns for State benefits in addition to drawdowns for Federal
       benefits.

   •   ETA monitors the reconciliation process on a quarterly basis and provides the OCFO
       status reports on the results of the reconciliations.

   •   OCFO documents procedures used to verify that State reported data recorded in DOLAR$
       through the FMRS is accurate.

   •   OCFO evaluates analytical procedures used to verify State UI advance, accounts payable,
       and benefit expense data entering DOLAR$. This evaluation should include an analysis of
       whether the procedures are proper in design and application. The allowable variance from
       expectation should be determined in such a way that significant changes in the above
       mentioned balances would be detected.

       During FY 2001, we found that the Financial Management Reporting System (FMRS)
       produced monthly schedules of comparison of State drawdowns to the amounts deposited by
       the respective States. The comparison schedules for FY 2001 identified large differences
       between the two of approximately $334 million. The OCFO has recorded most of the
       differences; however, the States have not consistently corrected the ETA form 2112 and some
       of the States continue to report disbursements net of IRS taxes. Until such time as the States
       correct for prior-period errors and report correct information on the 2112, the schedules will
       continue to show large differences. Management has indicated that during FY 2002, a visit will
       be made to each State to assist the State with reconciling the FY2001data and to make
       appropriate prior-year adjustments. Recommendations 1. and 2. remain resolved and open.
       Closure is dependent upon completion of the reconciliations and substantial correction of the
       ETA 2112s, and upon disbursement data being reported at the gross amount, rather than net of
       IRS taxes. Recommendations 3. and 4. are closed based on procedures performed by the
       OCFO during FY 2001.

       Management’s Response:

       Management concurs.




OIG Report No. 22-02-004-13-001                                                               Page 9
                                           CFO FINDINGS AND RECOMMENDATIONS

2.      Property and Equipment
        Current Year Finding and Recommendation

     a. Accountable Property

        During our audit, we noted that several agencies did not have written procedures and systems
        to identify and track accountable property. Accountable property consists of non-capitalized
        property that is sensitive or at a greater risk of loss. The DLMS 2, Chapter 100 Property
        Management discusses certain types of items included in this category, such as automatic data
        processing equipment, communications equipment, lab equipment, and other specialized tools.
        Specifically, we noted that OASAM, ETA, and ESA do not have adequate written procedures
        and systems developed for identifying and tracking accountable property.

        ESA stated that there is not an adequate departmental system for tracking accountable
        property. ESA also indicated that they do comply with the Department’s capital asset
        standards and that they will comply with any future departmental directives under a new
        property inventory system. The DLMS 2 Chapter 100, however, requires the agency’s
        Property Management Officer (PMO) to manage the acquisition, utilization and disposition of
        property within the agency or region, and the accountable property officers are responsible for
        the custody, record keeping, reporting, and use of property. Therefore, ESA must maintain
        inventory records of accountable property regardless of whether the Department maintains a
        centralized system.

        ETA stated that they do maintain an inventory of certain items, but we were not provided a
        copy of this inventory listing. However, ETA also stated that they do not maintain an
        inventory of ADP equipment. ETA plans on taking a physical inventory of all personal
        computer and LAN printers and entering this inventory into a tracking system. The agency
        does not have written procedures for identifying and tracking all accountable property.

        OASAM stopped using the accountable property systems described in the DLMS in FY 1996.
        Since then, the national office and the regions have been using their own systems or have not
        been tracking property at all. There are no written procedures for these individual systems.

        Title 40, Section 483 of the United States Code (U.S.C.) states that each agency shall maintain
        adequate inventory controls over the property under its control. Title 31, U.S.C. 3512 requires
        each agency to establish systems of accounting and internal controls that provide effective
        control over, and accountability for, assets for which the agency is responsible.

        In addition, the JFMIP Property Management Systems Requirements (October 2000) states
        that property management systems are critical for establishing financial accounting and
        maintaining physical accountability over property. According to the JFMIP, one category of
        property which must be tracked includes sensitive or controlled property that is expensed when
        acquired.

        The Department is proposing to increase the capitalization threshold from $25,000 to $50,000.
        Future purchases under this threshold will no longer be tracked in CATARS and will be
        categorized as accountable property. Without adequate procedures and systems for tracking


OIG Report No. 22-02-004-13-001                                                                Page 10
                                          CFO FINDINGS AND RECOMMENDATIONS
       accountable property, these agencies cannot ensure that its assets are being safeguarded
       against loss or theft.

       Recommendation

  1.   We recommend that the Chief Financial Officer ensures that the Assistant Secretary for
       Administration and Management establishes written Department-wide procedures,
       including JFMIP property management system requirements, for identifying and
       tracking all accountable property.

  2.   We recommend that the Chief Financial Officer ensure that the Assistant Secretaries for
       Administration and Management, Employment and Training and Employment
       Standards identify and track accountable property to be incorporated into a property
       management system.

       Management’s Response:

       Management concurs with the OIG recommendation that the Chief Financial Officer ensure
       that the Assistant Secretary for Administration and Management establishes written
       Department-wide procedures, including JFMIP property management system requirements, for
       identifying and tracking all accountable property. We take exception to the OIG statement that
       “there is no effort underway to centralize” the tracking of accountable property, and we note
       that OASAM is already addressing the issues raised.

       OASAM is in the process of developing and implementing a strategy to revise how we acquire
       and account for property across the Department. This strategy is consistent with the
       President’s Management Agenda e-government initiatives to have easy-to-find single points of
       entry for government services and information, reduce the expense and difficulty of doing
       business, and make government more transparent and accountable. A part of our strategy will
       be to also ensure that the DOL property management system is integrated with other related
       financial management and e-procurement systems to exploit their data sharing capabilities.

       As part of our initial steps to develop a DOL-wide system, we conducted a preliminary review
       of current DOL property management operations. This review revealed that the Department
       does not have uniform procedures and data sharing among the financial, procurement and
       property systems, as required under Joint Financial Management Improvement Program.
       OASAM is committed to the concept that the implementation of a well-coordinated property
       management program, supported by state-of-the-art property management system, is critical to
       achieving the goals of the Department and will work with DOL agencies collaboratively to
       consider their interests as the new system is planned and developed.

       The involvement of each DOL Agency is essential to ensuring that the system developed meets
       property management needs across DOL. To that end, we will request the designation of a
       senior official from each DOL Agency to serve on a DOL-wide property management task
       force. The Administrative Officers Group will be used as the steering committee to provide
       general direction and oversight for this project. With support from the Office of the Chief
       Financial Officer, and OASAM’s Information Technology Center, the task force will be used
       to develop and recommend more detailed policies, procedures and practices to implement the



OIG Report No. 22-02-004-13-001                                                               Page 11
                                          CFO FINDINGS AND RECOMMENDATIONS
      system, as well as ensure the technical solution is compliant with DOL’s information
      technology architecture.

      OIG Conclusion:

      While the goals outlined in Management’s response appear adequate, the creation of a task
      force does not constitute an adequate plan to achieve these goals. Therefore, this recommenda-
      tion is unresolved, pending receipt and review of an acceptable corrective action plan with
      time frames for completion.


3.    Accounting for Grants
      Status of Prior Year Findings and Recommendations

      DOLAR$ Grant Transactions Not Reconciled to DHHS/PMS

      In our FY 2000 audit (OIG Report No. 22-01-006-13-001), we reported that ETA did not
      reconcile transactions recorded in the Department of Health and Human Services (DHHS)
      Payment Management System (PMS) to those recorded in the DOLAR$ general ledger. Since
      PMS is the initial system of record for grant payment transactions, it is essential that all of
      these transactions accurately interface to DOLAR$, and that the two systems reconcile. In
      addition, the Department’s written policy (DLMS-6 Chapter 7, paragraph 713) requires
      agencies to reconcile their respective financial information recorded in the two systems at least
      quarterly. In ETA’s case, these requirements apply to both the payments processed by PMS
      as well as the obligations recorded in PMS (the obligation controls the total amount available
      for draw down). The PMS Synchronization Reports (Sync Reports) have been developed to
      assist the granting agencies in reconciling information recorded on the two systems.

      We made the following recommendations:

 !    We recommended that the Chief Financial Officer and the Assistant Secretary for
      Employment and Training ensure that ETA implements policies requiring routine
      reconciliations of grant transactions recorded in DOLAR$ to those recorded in PMS.
      Specifically, procedures should have the following:

      S       Reconciliations should analyze the differences identified on the Sync Reports and
              include an appropriate resolution of the differences noted for each document, and
              should be sufficiently documented.

      S       Reconciliations should be performed at least quarterly for both obligations and
              payments, in compliance with the DLMS requirements. However, ETA should
              consider monthly reconciliations for payments, due to the volume of payment
              transactions.

      S       Grant closeout procedures should include a determination that the documents are
              in balance with PMS (grants should not be closed if the documents reflect different
              payments on PMS than those reflected on DOLAR$).



OIG Report No. 22-02-004-13-001                                                                Page 12
                                         CFO FINDINGS AND RECOMMENDATIONS
      Our audit disclosed that ETA initiated a reconciliation process in FY 2001. The reconcilia-
      tions performed focused on the current year’s documents (FY 2001 documents). Our review of
      the PMS Sync report for the FY 2001 documents indicated that only a few documents had
      differences, and we conclude that the reconciliation process utilized by ETA effectively
      identified and corrected differences between the two systems. However, the Sync Report
      continues to reflect numerous differences for documents obligated prior to FY 2001. For the
      most part, these differences have been identified as RCC code differences, and are not true
      differences between the two systems. Management stated that reconciliation efforts will be
      expanded in FY 2002 to include prior year documents that remain out of balance with PMS,
      and that corrections will be made to clean up the Sync Report at that time. Based on the
      efforts made by management, the first two parts of this recommendation are considered
      resolved and open pending our review of the efforts made in FY 2002 to reconcile and resolve
      prior year documents.

      With respect to grant closeout, the closeout unit has not yet implemented procedures to verify
      PMS balances prior to grant closeout. This part of the recommendation remains unresolved.

      Management’s Response:

      Management of the Employment and Training Administration (ETA) disagrees with the
      conclusions reached by the OIG in the FY 2001 audit. Beginning in FY 2000, ETA, Office of
      Financial and Administrative Services (OFAS) started the following efforts that were
      completed during FY 2001:

      1.      Reconciliation of all obligation and disbursement activity for the fiscal years 1995
              through 2001 between the Department of Labor Accounting and Related Systems
              (DOLAR$) and the U.S. Department of Health and Human Services (DHHS),
              Payment Management System (PMS) that began during FY 2000;

      2.      Monthly reconciliation of obligation and disbursement information to identify any new
              differences in order to take corrective action immediately.

      3.      Monthly reconciliation of the activity reported on the Standard Form (SF) 224
              submitted by the DHHS to the U.S. Department of the Treasury with the activity
              recorded in the DOLAR$ each month to identify and take corrective action on any
              discrepancies between information reported to the Treasury compared to the informa-
              tion transmitted from the DHHS/PMS to DOLAR$.




OIG Report No. 22-02-004-13-001                                                               Page 13
                                          CFO FINDINGS AND RECOMMENDATIONS
       A summary of the total number and amount of obligations for FYs 1995 through 2000 in the
       DHHS/ PMS compared to the number and amount that remain unreconciled as of September
       30, 2001 and the information the OIG summarized to support its finding last year, follows:

          DHHS, PMS                        Unreconciled                FY 2000 Audit Report
 Year     Number     Amount                Number Amount               Number    Amount
 1995     1,525      $ 5,578,438,617        19        $ 1,258,846      N/A       N/A
 1996     1,731         5,765,919,746       23         16,774,209      N/A       N/A
 1997     1,843         6,297,714,966       29          5,268,567       61       $47,616,363
 1998     2,120         7,594,416,181       17          3,930,795       63         43,895,305
 1999     2,059         7,578,057,266       31          2,815,490       58        (12,550,767)
 2000     1,798         5,338,556,174       28          8,132,318      114          (1,568,532)
 Totals 11,076        $38,153,102,950 147             $38,180,225      296       $77,392,369
 N/A – Information not available in OIG finding.

       ETA will resolve the remaining unreconciled obligations.

       Moreover, we believe our on going monthly reconciliations demonstrate that ETA’s OFAS has
       put in the effort to resolve this issue. Accordingly, we believe this finding should be closed.

       OIG Conclusion:

       While ETA’s reconciliation process was effective for the current year’s documents, further
       actions are necessary to resolve prior year differences between PMS and DOLAR$. As of
       September 30, 2001, the Sync Report provided by the OCFO reflected the following:

                            Obligations                                     Payments
               FY      Number       Difference               FY        Number Difference
               Prior    374      $397.1 million              Prior      374   $398.7 million
               1996     102       232.7 million              1996        73    195.3 million
               1997      53         44.1 million             1997        31      (3.1) million
               1998      49         41.1 million             1998        35      (6.0) million
               1999      40        ( 1.2) million            1999        24     ( 4.2) million
               2000      36         10.7 million             2000         7      10.8 million

       ETA needs to reconcile prior year differences and record the appropriate adjustments in either
       PMS or DOLAR$. If the appropriation has already canceled, ETA should post the closing
       entries at PMS so that the document no longer appears on the Sync Report (especially since
       there is a fee charged by HHS for each document open in the PMS system).

       The first two parts of this recommendation are resolved and open pending completion of the
       steps necessary to complete the reconciliations for the prior years and clear the remaining
       differences from the Sync Report. Management did not comment on the third part of this
       recommendation, therefore, it remains unresolved.




OIG Report No. 22-02-004-13-001                                                               Page 14
                                         CFO FINDINGS AND RECOMMENDATIONS
 !    We recommended that the Chief Financial Officer ensures that changes are made to
      DOLAR$ and/or the Sync Report so that the report provides a more useful and reliable
      tool for management. Specifically, procedures should have the following:

      S       The Sync Report should include DOLAR$ documents with PMS activity that were
              not included in the initial PMS search process.

      S       The Sync Report should not reflect differences for documents that have been
              archived from DOLAR$ or for canceled appropriations. These PMS documents
              should be excluded from the report.

      S       Grant documents should not be archived prior to grant closure and reconciliation
              with PMS.

      S       The Sync Report should be modified to alleviate truncated numbers.

      This recommendation was not addressed by management during FY 2001, and, therefore,
      remains unresolved.

      Management’s Response:

      The OCFO did consider and/or address the OIG’s recommendations during FY 2001.
      Management’s conclusions and/or actions are noted below.

      S       The current methodology used in the matching process is a significant and efficient
              internal control for identifying differences existing between the DHHS/PMS and
              DOLAR$. It is management’s opinion that modification of the current matching
              methodology would significantly compromise existing internal controls.

      S       The Sync Report program was modified in FY 2001 to allow for the exclusion of PMS
               grant documents that have been closed in the PMS system. The exclusion criteria can
              be applied individually to each grantor agency’s Sync Report based on their needs.
              Management believes that no grant documents should be excluded from the cross-
              match unless the document has been closed at DHHS.

      S       Archiving of documents within the DOLAR$ system is done to reduce operating costs
              and increase database efficiency. Archived documents can be easily retrieved either
              individually online or in bulk through the use of a batch process. No documents are
              archived unless obligations, costs, and payments are equal and there has been no
              activity posted to the document within the last year. Given these facts, management
              has decided not to change the DOLAR$ archive process.

      S       Management agrees with the OIG recommendation to correct truncated numbers.

      OIG Conclusion:

      The recommendation regarding Sync Report amendments was based on discussions with the
      various granting agencies, and on our observations of the difficulties incurred when using the
      Sync Report to reconcile PMS activity. Essentially, we recommended these modifications so


OIG Report No. 22-02-004-13-001                                                              Page 15
                                          CFO FINDINGS AND RECOMMENDATIONS
       that the Sync Report would provide a better match of documents recorded in the two systems,
       and accordingly, would provide an improved reconciliation tool for management. We do not
       concur with the OCFO that this would in any way compromise existing internal controls,
       rather, the existing internal controls would be improved.

       This is especially true concerning the archiving process. Currently, a grant can be archived
       from DOLAR$ with no regard as to whether or not the grant has been reconciled to PMS or
       has been closed. We conclude that it is inappropriate to archive documents from the official
       accounting records before granting agencies have completed the reconciliation and closeout
       responsibilities required by Department policy and the regulations.

       We concur the OCFO, in that there is some benefit to having documents remain on the Sync
       Report until they are closed at HHS, even though they are no longer recorded in DOLAR$.
       Therefore, we will close the second part of this recommendation. The remaining parts of this
       recommendation are considered unresolved. Resolution is dependent upon submission of a
       specific corrective action plan.


       Grant Accounting Errors

       In our FY 1999 audit (OIG Report No. 12-00-003-13-001), we identified significant errors in
       the recording of ETA’s grants, primarily for the Job Training Partnership Act (JTPA)
       program. We made the following recommendations:

   •   We recommended that the Chief Financial Officer and the Assistant Secretary for
       Employment and Training ensure that procedures are established to ensure that errors
       made in recording grant information are identified and corrected on a timely basis. At a
       minimum, this should include review procedures for data input and utilization of
       exception reports which identify transactions with an unusual nature (such as negative
       cost entries).

       In FY 2001, we continued to detect errors in the amounts recorded for ETA’s grants and
       contracts. At the ETA regional offices, our samples of Job Corps contracts detected contracts
       where the obligations recorded in DOLAR$ did not agree with the amounts authorized as
       indicated on the Job Corps contract and subsequent modifications. We also identified
       contracts where the costs recorded in DOLAR$ did not agree to the cumulative costs recorded
       by contractors on the public vouchers.

       At the National Office, we identified over 150 grant documents where a negative cost entry
       was recorded for the quarter ended March 2001, many for significant amounts (as much as
       $22.8 million). These entries were generated by ETA during the process used to record grant
       costs captured in the EIMS system and were considered to be erroneous entries. The entries
       were not supported by cost reports submitted by grantees, and in many cases created an
       advance balance equal to the amount of the negative entry.

       In prior years, ETA indicated that it had controls in place to identify and correct grant errors
       on a timely basis, and that the data verification and edit checks developed in the Electronic
       Information Management System (EIMS) should alleviate these issues. They took the position
       that there was no valid reason for keeping this finding open.

OIG Report No. 22-02-004-13-001                                                                Page 16
                                         CFO FINDINGS AND RECOMMENDATIONS


      However, the EIMS has not progressed as planned. This system was implemented in August
      1999. As of the end of FY 1999, management estimated that the system would be completed
      by July 2000. This estimate was subsequently changed to FY 2001 for the WIA program, and
      FY 2002 for the remaining programs. Currently, EIMS remains incomplete, even for the WIA
      program, and there is no current plan or estimated date of completion. Many of the data
      verification and edit checks initially built into the system have since been eliminated, and the
      data does not yet interface with DOLAR$. The data captured in EIMS must be manually
      manipulated before it can be entered into DOLAR$, a process which increases the risk of error
      and delays the posting of grant costs.

      The audit findings continue to indicate that improved procedures are necessary relative to
      detecting and correcting grant errors at the National and regional offices. Accordingly, this
      recommendation is changed from resolved and open to unresolved. Closure is dependent
      upon substantial completion of the EIMS system, and upon implementation of adequate written
      policies and procedures for detecting and correcting potential grant errors at both the National
      and regional offices.

      Management’s Response:

      ETA management has mixed feelings about the conclusions reached by the OIG. We
      recognize the need to revisit the development and implementation plans for the Enterprise
      Information Management System (EIMS), especially in light of Congressional actions to split
      annual program funding for Workforce Investment Act (WIA) state programs. This action
      compromised a number of edits that had been incorporated in the original design. Moreover,
      ETA/ OFAS will continue to provide instruction to the ETA regional offices to review the
      DOLAR$ information for their Job Corps contracts.

      However, we disagree with the OIG’s decision to change this finding from resolved and open to
      unresolved and the points raised by the OIG concerning the negative cost entries that ETA’s
      OFAS recorded in March 2001.

      Cost reporting is more current and timely than it has ever been for ETA and we have taken
      some measures to address delinquent cost reporting. This past year, web-based reporting has
      been extended to State Employment Security Agency programs. Reporting has been closely
      monitored and is complete for both our Unemployment Insurance and Employment Service
      programs. Moreover, when we looked closer at the points raised by the OIG we are puzzled
      by the conclusions. For example, we believe the following paragraph in the OIG’s finding is
      misleading.

      “At the National Office, we identified over 150 grant documents where a negative cost entry
      was recorded for the quarter ended March 2001, many for significant amounts (as much as
      $22.8 million). These entries were generated by ETA during the process used to record grant
      costs captured in the EIMS system and were considered to be erroneous entries. The entries
      were not supported by cost reports submitted by grantees, and in many cases created an
      advance balance equal to the amount of the negative entry.”

      When this issue first came up in the audit, we explained to the OIG that we were always aware
      of the negative cost entries and had reservations about recording them. We made a conscious

OIG Report No. 22-02-004-13-001                                                               Page 17
                                           CFO FINDINGS AND RECOMMENDATIONS
       decision not to record them until we resolved data quality issues, and had to record the entries
       as part of the JTPA closeout and transfer to WIA. In all cases, we can and did provide the
       supporting information to the OIG.

       As discussed with the OIG, ETA/ OFAS made a conscious decision early on in FY 2000 to not
       record the negative entries out of concerns for the quality of the data we were receiving to
       record in the DOLAR$. In March 2001, we sent the JTPA cost information to the ETA
       regional offices for their review, and concluded that the entries had to be made in order to close
       out the JTPA grants and begin recording WIA cost reports.

       ETA/ OFAS was fully aware of the actions it was taking and believes it was taking precau-
       tions to avoid erroneous information being recorded in the DOLAR$. Given that EIMS
       development and implementation is addressed in a separate finding, we believe this finding
       should be closed.

       OIG Conclusion:

       When the negative entries were identified during the audit, we sent ETA a memorandum
       requesting explanations for the amounts recorded. In response, they provided a memo which
       essentially stated that they were aware of the entries and that they were mostly for JTPA grants
       whereby ETA decided to record the entry as part of the transfer of unspent funds to WIA.

       We contend that knowledge of an erroneous entry does not justify recording the entry in the
       general ledger, and that ETA’s explanation does not indicate why they believe the entries were
       necessary or the basis for the entries. The entries were not supported by cost reports
       maintained in the EIMS system. Furthermore, since WIA transfers were recorded in the same
       DOLAR$ document as the original JTPA grant, there would be no reason to reduce total costs
       in order to record a transfer to WIA. The portion attributable to WIA is not separated in
       DOLAR$, rather, it is manually tracked off ledger.

       Management’s response does not address the errors noted at the regional offices.

       This recommendation remains unresolved. Resolution is dependent upon completion of the
       items previously described.


       Accounting for JTPA Transfers

       In our FY 1999 audit (OIG Report No. 12-00-003-13-001), we determined that ETA did not
       account for funds transferred within the JTPA program, even though funds were moved
       between grants and appropriation accounts. While the JTPA program has since been closed, a
       similar situation exists with the WIA program. Under WIA, grantees are allowed to transfer
       funds between the adult programs. These transfers are captured in EIMS but are not recorded
       in DOLAR$. Rather, the funds are recorded and reported to OMB as if they were spent for
       the original program.

   •   We recommended that the Chief Financial Officer and the Assistant Secretary of
       Employment and Training ensure that controls are implemented over JTPA transfers or


OIG Report No. 22-02-004-13-001                                                                 Page 18
                                          CFO FINDINGS AND RECOMMENDATIONS
        similar provisions of successor programs (such as the Workforce Investment Act),
       including:

       S       procedures to monitor transfers made by grantees, which ensure that transfers do
               not exceed the limitations established by law, and

       S       procedures to account for JTPA transfers, which ensure that transfers between
               appropriation accounts are accounted for in accordance with OMB guidance and
               that all program costs are accurately recorded for each program.

       Regarding the monitoring of grantees transfers, ETA built into the EIMS system a feature
       which precludes WIA grantees from reporting transfers in excess of the allowable threshold.
       Therefore, this par of the recommendation is closed.

       Regarding the accounting of transfers, during FY 2001, a meeting was held with members of
       OIG and ETA staff, as well as the OIG and ETA attorneys. It was agreed at this meeting that
       the ETA attorney would provide their legal opinion regarding the transfers (one had already
       been issued by the OIG attorney) and that the matter would be forwarded to OMB to determine
       the appropriate resolution. No further action has been taken by ETA. Therefore, this part of
       the recommendation remains unresolved.

       Management’s Response:

       ETA’s OFAS believes that the OIG’s interpretation is incorrect and we have requested a legal
       opinion from the Office of the Solicitor. Upon receiving an opinion, ETA management will
       meet with the OIG to determine any further course of action, including requesting further
       opinions.

       OIG Conclusion:

       We agree with ETA to pursue its planned course of action and obtain an opinion on this matter
       from its solicitor. This recommendation remains unresolved.


       Delinquent Grantee Reporting

       Over the past 2 years, our audits identified delinquent reporting on the part of ETA’s grantees
       and contractors. Our FY 1999 audit (OIG Report No. 12-00-003-13-001) included the
       following recommendation:

   •   We recommended that the Chief Financial Officer and the Assistant Secretary for
       Employment and Training establish procedures for monitoring grantee reporting. At a
       minimum, these procedures should provide for the timely identification of delinquent cost
       reports and appropriate follow up efforts with grantees.

       In FY 2000, ETA stepped up its efforts to obtain and record delinquent cost reports from its
       grantees. While written procedures were not developed, ETA submitted a memorandum to the
       regional offices stressing the importance of obtaining delinquent cost reports. ETA also
       developed a report which shows the grantees with significant advance balances. Both regional


OIG Report No. 22-02-004-13-001                                                                Page 19
                                          CFO FINDINGS AND RECOMMENDATIONS
      office and national office staffs are required to investigate the documents with significant
      advance balances. In addition, features were added to the EIMS cost system to detect and
      report untimely reporting by grantees (for the WIA program only). Despite these efforts, our
      FY 2001 audit continued to note delinquent reporting. To begin with, we noted numerous
      documents where the grantees have not reported any costs since inception of the grant. These
      grants reflect large advance balances, as follows:

             Year of              No. of                 Reported             Advance
            Obligation          Documents                 Costs                Balance
              1996                    2                         0          $ 2,354,659
              1997                    3                         0              2,846,939
              1998                  14                          0             24,860,558
              1999                  51                          0             81,872,011
              2000                 104                          0            211,098,806
              2001                  16                          0            210,763,045
                                   190                                     $ 533,796,018

      While these numbers reflect a complete lack of cost reporting by the respective grantees, there
      are many other grants with large advance balances where costs reports are delinquent. We
      identified numerous grants where costs were recorded, but the grants still had large advance
      balances. For example, we identified the following:

                                 Reported          Advance
            Document No.           Costs           Balance        Last Reported
            AA10248DX2          $ 146,632        $32,212,246           June 2000
            AA10256DX0           32,091,811       19,132,895      December 2000
            ES10666EV0             5,214,831      27,655,910      September 2000
            ES10690EV0            3,106,712       14,560,128      September 2000

      Finally, we noted delinquent cost reporting during our review of the EIMS downloads. The
      WIA download for the June 30 quarter contained 319 cost entries, of which 69 represented
      cost entries related to earlier reporting periods (March 31, December 31, or September 30).
      These 69 entries represent delinquent cost reports. They appeared in the June 30 download
      because the information was not available at the time the downloads were prepared for the
      earlier reporting periods.

      Based on our findings, it is apparent that additional controls are necessary to resolve this issue.
      ETA management agreed with the need to monitor the timely submission of cost reports. They
      indicated that efforts would be made to identify those grantees that do not submit cost reports
      as “high risk” and that “high risk grantees would be placed on a cost reimbursement basis
      rather than continue to draw down funds in advance.” To our knowledge, this policy was
      never implemented. This recommendation is changed from resolved and open to unresolved.
      Resolution is dependent on ETA implementing ongoing monitoring procedures which will
      ensure that missing cost reports are identified, and subsequently submitted to ETA. In
      addition, ETA should implement the policies outlined by ETA in response to the prior year’s
      audit. These policies and procedures for dealing with delinquent grantee reporting should be
      put in writing and submitted to all ETA offices.




OIG Report No. 22-02-004-13-001                                                                 Page 20
                                         CFO FINDINGS AND RECOMMENDATIONS

      Management’s Response:

      ETA management disagrees with the OIG’s decision to change this finding from resolved and
      open to unresolved and the conclusions reached by the OIG as part of its FY 2001 fieldwork
      While ETA management agrees with the need to address chronic delinquent cost reporting with
      pragmatic solutions, we believe cost reporting is more current and timely than ever for ETA.

      When we looked at the OIG’s summary information on advances, the large number and
      amount of advances since 1999 relate to the Migrants program which reports semi-annually
      and not quarterly. Cost transactions for the Migrants program were submitted to the OCFO in
      December 2001.

      Moreover, our analysis of the four examples cited by the OIG showed that cost transactions
      for the first two grants were included with the June file that the OCFO did not record until
      October 2001. Cost reports for the second two grants were in the EIMS when due, but not
      included in the files that ETA’s OFAS received to record June cost activity in the DOLAR$
      because they had not been accepted by the regional office.

      Accordingly, we do not agree with the OIG’s assessment of ETA’s progress and the decisions
      to change this finding from resolved and open to unresolved.

      OIG Conclusion:

      The advances listed in this finding represent a variety of ETA programs. The migrant program
      accounts for about $9 million (7 documents) from 1999 and $67 million (42 documents) from
      2000. The remaining $427 million of advances from 1999, 2000, and 2001 relate to other
      grant programs. Regardless of this fact, even the migrant grants from 2000 had cost reports
      due during the fiscal year, and the fact that costs for these grants were not recorded until
      December 2001 supports the OIG’s conclusion that the costs were delinquent. The 2000
      migrant grants were obligated in July 2000, and the grantees began drawing the funds
      thereafter. At a minimum, December 31, 2000, and June 30, 2001, cost reports should have
      been recorded for these grants. We ran a query on the four largest advances, and found that
      three of these grants had cost entries for December 2000, March 2001 and June 2001 recorded
      on December 28, 2001, and one of these also had a September 2000 cost entry recorded in
      December 2001. The fourth grant had no costs recorded to date. All of these grants reflect
      delinquent cost reporting.

      While we recognize that ETA has made efforts to obtain missing cost reports, our conclusion
      is that improved ongoing monitoring controls are needed to resolve this finding. Our
      recommendation remains unresolved pending completion of the actions previously described.




OIG Report No. 22-02-004-13-001                                                              Page 21
                                           CFO FINDINGS AND RECOMMENDATIONS
       Timeliness of Recording Grant and Contract Costs

       Over the years, we have continually reported that ETA does not record grantee and contractor
       costs on a timely basis, a situation caused by the delayed input of cost reports, delinquent
       grantee reporting, and in recent years, by the manual procedures which are required to record
       costs captured in the EIMS system. This finding was originally reported in FY 1995 (OIG
       Report No. 12-96-007-13-001), when we made the following recommendation:

   •   We recommended that the Chief Financial Officer and the Assistant Secretary for
       Employment and Training ensure that the Division of Accounting records grantee and
       contractor cost reports timely.

       While ETA has made efforts to improve the timeliness in recording grant costs, our audit
       continues to identify untimely recording of grant costs at both the National and regional
       offices. At the National Office, we noted that the costs captured in EIMS were not
       consistently recorded in DOLAR$ on a timely basis. For example, the March 31 costs reports,
       for the most part, were not recorded in DOLAR$ until July. These reports should be recorded
       in DOLAR$ by mid June at the latest. At the regional offices, approximately 29 percent of our
       regional sample had cost reports which were not submitted timely.

       We continue to note delayed posting of grant costs. While improvements have been made in
       this area, it is apparent that additional actions are necessary for closure of this recommenda-
       tion. This recommendation remains resolved and open. Closure is dependent on implementa-
       tion of additional controls to ensure that costs are recorded timely, and on our observation of
       the timely recording of costs during FY 2002. Until EIMS is complete, this will require that
       ETA download the costs from EIMS and prepare the costs for entry to DOLAR$ on a timely
       basis, and that the OCFO promptly record the costs in DOLAR$ once received from ETA.
       We have addressed the issue of completing EIMS in a separate finding. However, we conclude
       that completion of EIMS is the most effective and efficient means by which to resolve this
       issue as well as other grant issues identified in this report.

       Management’s Response:

       ETA Response

       ETA management disagrees with the conclusions reached by the OIG and believes this finding
       should be closed based on ETA/OFAS efforts for the past two fiscal years.

       Since January 2000, ETA/ OFAS has met its planned goal each quarter of creating cost
       transaction files in the month after the reports are due and submitting the files to the Office of
       the Chief Financial Officer (OCFO) who uploads the files in the DOLAR$. As the OIG well
       knows, any files that were not recorded timely in the DOLAR$ were caused by the OCFO and
       not ETA. Moreover, efforts to record cost activity via hard copy reports have been stepped up
       to include logging in the cost reports and ensuring that ETA/ OFAS staff record the activity
       promptly in the DOLAR$.




OIG Report No. 22-02-004-13-001                                                                 Page 22
                                          CFO FINDINGS AND RECOMMENDATIONS
      OIG Conclusion on ETA’s Response:

      Costs were not recorded timely in FY 2001. This was noted in both regional office and
      national office processing of grant costs. Regardless of the reasons, the fact remains that the
      manual process required to record EIMS costs in DOLAR$ continues to cause delays in
      recording grant costs. These delays would be alleviated if ETA would complete the EIMS
      system, at which point costs would be interfaced on a routine basis and the general ledger
      would be updated timely.

      OCFO Response

      In management’s opinion, with respect to these financial statements, DOL has recorded grant
      costs in accordance with Federal Accounting Standards. Management’s opinion is supported
      by the fact that the OIG did not propose or pass any grant cost adjustments to the FY 2001
      statements. Based on these facts, OCFO management has provided reasonable assurance that
      the following objectives have been met:

      S     Reliability of financial reporting - transactions are properly recorded, processed, and
            summarized to permit the preparation of the Principal Statements and Required
            Supplementary Stewardship Information in accordance with generally accepted
            accounting principles, and assets are safeguarded against loss from unauthorized
            acquisition, use, or disposition; and

      S     Compliance with applicable laws and regulations - transactions are executed in
            accordance with laws governing the use of budgetary authority and other laws and
            regulations that could have a direct and material effect on the Principal Statements or
            Required Supplementary Stewardship Information.

      OIG Conclusion on OCFO’s Response:

      While it is true that there have been no audit adjustments to grant costs, this is due to the fact
      that ETA records an accrual for missing cost reports at year end. This does not mean that the
      system for recording grant costs meets all existing standards for financial management
      systems. The financial system requirements set forth in JFMIP publications and OMB
      Circular A-127 require that financial systems provide complete, timely, reliable and consistent
      information for decision making purposes (not just for year end financial reporting). In
      addition, OMB Circular A-123 establishes specific management control standards, including
      standards for recording and documentation. Part II of this circular states, “transactions should
      be promptly recorded, properly classified and accounted for in order to prepare timely accounts
      and reliable financial and other reports.”

      We conclude that grant costs should be recorded timely, in accordance with existing standards.
      This recommendation remains resolved and open, pending completion of the items previously
      described.




OIG Report No. 22-02-004-13-001                                                                Page 23
                                          CFO FINDINGS AND RECOMMENDATIONS
       Accounting for Accrued Costs

       In FY 1994 (OIG Report No. 12-95-004-07-001), our audit stated that the books of account
       (in this case, accrued liabilities) should be maintained throughout the year in accordance with
       the accounting policies described in the notes to the financial statements, rather than at year
       end only. We made the following recommendation:

   •   We recommended that the Acting Chief Financial Officer ensures that departmental
       policies and procedures are implemented to require the books of account be maintained in
       accordance with the accounting policies described in the notes to the annual financial
       statements. Specific action should include incorporating the following items into the
       Department’s routine accounting rather than at year end or for financial statement
       purposes only:

       S     Refinement of accrued costs for ETA grants and reclassification of grant-related
             receivables and payables.

       In prior years, management agreed with this finding and indicated that accruals would be
       prepared on a quarterly basis beginning in FY 2001. Despite management’s intentions, we
       noted that the accruals were once again recorded as part of the year end process. The OCFO
       is in the process of refining the accrual methodology to use on a quarterly basis. In future
       years, the Department will be required to issue quarterly financial statements and it will be
       essential that management prepare quarterly accruals. This recommendation remains resolved
       and open. Closure is dependent on our review of the quarterly accruals during our FY 2002

       Management’s Response:

       Management agrees with the OIG that accruals should be recorded in accordance with Federal
       Accounting Standards and OMB reporting requirements. During FY 2001, management
       recorded accrued costs in accordance with the aforementioned standards and requirements and
       will continue to do so in the future.

       OIG Conclusion:

       This recommendation remains resolved and open pending completion of the items previously
       described.


       ETA Grant Closeout Process

       In our FY 1996 audit report (OIG Report No. 12-97-005-13-001), we recommended that:

  •    The Chief Financial Officer and the Assistant Secretary for Employment and Training
       ensure that procedures are established to ensure that the regulatory time requirement for
       submitting all financial, performance, and other required documents within 90 days after
       the end of the grant is met by the grantee or contractor and that grants are closed out in a
       timely manner, i.e., 1 year or less.




OIG Report No. 22-02-004-13-001                                                                Page 24
                                         CFO FINDINGS AND RECOMMENDATIONS
      In FY 2000, the responsibility for closing ETA grants was moved to the Office of Grants and
      Contracts Management. Since that time the Closeout Unit has significantly improved the grant
      closeout process, including the development of a tracking system to monitor the progress of
      grants and contracts moving through the closeout process. The inventory of grants in closeout
      has been substantially reduced, as follows:

      The status reports prepared by the Closeout Unit reflect the following number of cases in the
      ending inventory:

            Grants in closeout at September 30, 1999         2,353
            Grants in closeout at September 30, 2000         1,810
            Grants in closeout at September 30, 2001         1,030

      Of the 1,030 cases in closeout at year end, over 200 cases were with the Division of
      Accounting pending final certification and deobligation. We noted that many of these cases
      have been pending certification for a considerable amount of time. We also noted that grants
      sent for final certification were sometimes subsequently adjusted before the certification was
      complete. These subsequent entries either put the grant out of balance or made the amount of
      the deobligation entry obsolete. We concluded that ETA needs to improve the timeliness of the
      certification process and the process used to close a grant in the PMS. This will help prevent
      entries to the grant after the closeout unit has processed the grant for closure.

      For the most part, the closeout process is initiated when grants are forwarded from the
      Division of Federal Assistance, the Division of Contracts, or the Office of Job Corps. The
      closeout unit has indicated that often grants or contracts are submitted several years after the
      final cost reports were due to ETA, and that this practice results in an untimely closeout
      process. In fact, the closeout unit has had to perform unilateral closeouts because the grantees’
      record retention period has expired. Therefore, the closeout unit initiated various procedures to
      identify additional grants and contracts from prior years which had not been submitted for
      closeout on a timely basis. In FY 2001, they performed a DOLAR$ query and identified 697
      additional cases that had not been forwarded for closeout by the Division of Federal
      Assistance and the Division of Contracts. A review of a sample of these cases disclosed that
      many were very old grants or contracts which were actually closed in prior years. The
      closeout unit is currently investigating these cases to determine which cases need closure and
      should be included in the ending inventory.

      We conclude that while the Closeout Unit has made significant improvements in closing grants
      and contracts, the process remains untimely. Grants and contracts are not consistently
      forwarded to the Closeout Unit on a timely basis, and, as indicated above, certain procedures
      within the closeout process are not being performed on a timely basis.

      This recommendation remains resolved and open. Closure is dependent on the timely
      forwarding of grants and contracts to the Closeout Unit by the Division of Federal Assistance,
      Division of Contracts, and the Office of Job Corps, in accordance with the closeout require-
      ments and time frames specified in the governing regulations. Closure is also dependent upon
      the timely processing of grants and contracts once in closeout.




OIG Report No. 22-02-004-13-001                                                               Page 25
                                         CFO FINDINGS AND RECOMMENDATIONS
      Management’s Response:

      Management concurs.


      Grants Accounting Procedures

      In FY 1997 (OIG Report No. 12-98-002-13-001), we reported that high turnover of staff and
      lack of written grants accounting procedures for ETA hampered the effectiveness and
      efficiency of the grants accounting function. At the ETA regional offices, this resulted in
      inefficiencies, significant procedural errors, and/or over dependence on a single individual to
      ensure the integrity of the operation.

  •   We recommended that the Acting Chief Financial Officer and the Assistant Secretary for
      Employment and Training ensure that the Office of Regional Management (ORM) and the
      Office of the Comptroller (OC) coordinate the development of standard written grants
      accounting procedures for use by the regional offices.

      There are no written procedures in place as of FY 2001 at the regional offices. Written
      procedures are necessary to provide continuity at the regions in areas such as: processing Job
      Corps invoices, reviewing data recorded in DOLAR$ for accuracy and completeness,
      certifying information recorded by grantees in EIMS, and monitoring grantees to ensure that
      cost reports are submitted or recorded in EIMS on a timely basis.

      In addition, there are very few written accounting procedures at the national office. However,
      the majority of ETA’s grants and contracts are now recorded at the national office, including
      the process by which EIMS grant costs are recorded in DOLAR$. In fact, this process is
      controlled solely by one individual within ETA. Therefore, we are extending this recommenda-
      tion to include written procedures at the National Office. This recommendation remains
      unresolved.

      Management’s Response:

      ETA management disagrees with the conclusions reached by the OIG for the FY 2001 audit,
      and instead, we believe this finding should be resolved. The ETA regional offices developed
      written procedures in draft during FY 2001 that were available for OIG review. Accordingly,
      we believe this finding should be resolved.

      OIG Conclusion:

      To date, we have not been provided with a copy of written grant accounting procedures for the
      regional offices. At the three regions visited during the FY 2001 audit, we inquired as to the
      existence of written accounting procedures. While the regions believed that procedures had
      been in the making for many years, none had a copy in house, nor were they aware that
      procedures had been completed. As to the need for national office procedures, management did
      not address this issue in their response.

      Based on these facts, this recommendation remains unresolved. Resolution is dependent upon
      our receipt of written grant accounting procedures for ETA’s grants and contracts.

OIG Report No. 22-02-004-13-001                                                               Page 26
                                             CFO FINDINGS AND RECOMMENDATIONS


4.       Wage and Hour's Back Wage System
         Status of Prior Year Findings and Recommendations

         Backwage System Design

         Our FY 1997 audit report (OIG Report No. 12-98-002-13-001) identified the need to improve
         back wage financial systems. We made the following recommendations to the Acting Chief
         Financial Officer and the Assistant Secretary for Employment Standards:

     •   The back wage financial management systems should include the following features:

         -     A proper cutoff of accounting periods, with a limited period of time for correcting
               and recording transactions subsequent to the end of the period.

         -     The ability (and requirement) to close accounting periods.

         -     The ability to generate subsidiary reports using the same accounting cutoff and
               frequency as the general ledger control accounts, and controls which will ensure
               that totals on the subsidiary reports agree to totals posted to the general ledger.

         -     Controls to ensure that recorded information is accurate, reliable, timely and
               complete.

         -     The ability to edit, track and correct transaction, with proper authorization.

         In prior years, management agreed with these recommendations and planned to include
         appropriate cutoff controls in the redesign of the Back Wage Collection and Disbursement
         System (BCDS), as well as controls to ensure timely and accurate data entry. The system was
         implemented in FY 2001, and management made substantial efforts to improve the quality of
         data recorded in the new system. However, while the new system was substantially completed
         and implemented, not all of the system features have been completed to date. Management
         addressed this issue by implementing compensating controls to ensure proper cutoff at year
         end. However, we conclude that it is essential for cutoff controls to be built into the financial
         systems as a long- term solution. The need for cutoff will be crucial in future years as the
         Federal Government moves to quarterly reporting. In addition, we continued to note that cash
         receipts were not recorded in BCDS on a timely basis. These recommendations remain
         resolved and open pending completion of the BCDS system design to include the cutoff
         features identified above, and the successful outcome of the FY 2002 audit.

         Management’s Response:

         We agree that additional steps can be taken to improve the system of controls within BCDS.
         Changes are necessary in both the operational processes and automated features of the system
         to ensure the timely recording of financial activity and financial events. We are in the process
         of developing procedures for applying accounting dates that may be different from the actual
         transaction date to allow for the recording of activity in the month in which the event occurred.
         The difference between the accounting date and the transaction date will allow for the

OIG Report No. 22-02-004-13-001                                                                   Page 27
                                          CFO FINDINGS AND RECOMMENDATIONS
      identification of transactions relating to a prior period so that the previously reported balances
      are not affected. This system will include an automated feature to prevent transactions from
      being “back dated” to prior periods after the cutoff of the system’s reporting period.

      While operational processes for cutoff and closeout are already in place, additional procedural
      guidance is needed for the back wage accounting operations conducted by regional managers
      and accounting technicians. These increased accountability standards will require manager
      review of monthly cash reconciliation and accounts receivable subsidiary records to ensure that
      all financial activities are reported properly. Additionally, a central oversight process will be
      implemented for regional cash reconciliation and the reporting of back wage activities.

      We anticipate that all of these operational changes in BCDS will be fully implemented in
      January 2002, with automated changes completed by June 30, 2002. These system enhance-
      ments and operational changes will result in meeting the requirements for proper cutoff and
      closing of accounting periods in the system.

      OIG Conclusion

      This recommendation remains resolved and open. We concur with the actions described by
      management and will review the progress made during our FY 2002 audit.


      Back Wage Accounts

      In our FY 1993 audit (OIG Report No. 12-94-012-07-001), we recommended the following:

  •   Differences between the Back Wage regional (BCDS) and national (Back Wage Tracking
      System (BTS)) office systems should be reconciled and either or both systems should be
      adjusted accordingly so that complete, accurate, and documented balances by employer
      agree with the related control accounts in DOLAR$.

      Management has implemented procedures requiring regional and national office staffs to
      perform monthly comparisons of receipts and disbursements recorded in the BCDS with those
      amounts recorded in the BTS. Observations and inquiries at both the regional and national
      offices and a review of cash reconciliations performed by Office of Management Administra-
      tion and Planning (OMAP) reveal that reconciliations between the BCDS and BTS are being
      routinely performed. However, we noted that differences identified in this process are not
      adequately documented and tracked to ensure complete and timely resolution. Additional
      reconciliations had to be performed at year end in order to fully identify differences between
      BTS and BCDS, and to record the corresponding correcting entries in the system. In addition,
      a cumulative unreconciled difference between the BTS and BCDS remains. As of September
      30, 2001 the cumulative unreconciled difference between the two systems was $5,468,305.
      This amount represents a cash balance related to prior years and cannot be identified to
      specific back wage cases. We conclude that this amount should be reverted to Treasury.

      Management concurred that there is a need for further improvements in the reconciliation of
      BCDS, BTS and DOLAR$, and provided the OIG with a document that outlines the
      anticipated procedural changes and improvements to the reconciliation process which will be
      implemented in FY 2002. However, this recommendation remains resolved and open.

OIG Report No. 22-02-004-13-001                                                                 Page 28
                                            CFO FINDINGS AND RECOMMENDATIONS
         Closure is dependent upon implementation of management’s plan for full and complete
         reconciliations of BCDS, BTS and DOLAR$, and on our review of the reconciliations
         performed in FY 2002. Closure is also dependent upon the proper disposition of the $5.4
         million unreconciled difference.

         Management’s Response:

         We agree that further improvement in the reconciliation of BCDS, BTS and DOLAR$ is
         necessary to ensure that all cash activities are timely and properly recorded in the subsidiary
         system and general ledger. As referred to in the OIG update, we have provided a document
         that outlines the anticipated procedural changes and improvements to the reconciliation process
         to be implemented in FY 2002. These changes will provide improved National Office and
         Regional Office accountability for the tracking of differences between Treasury and BCDS
         each month to ensure complete and timely resolution. Additionally, we will implement a
         central oversight of the regional cash and account subsidiary reconciliation processes to ensure
         the BCDS and DOLAR$ accounts remain in balance.

         We also agree that, as of September 30, 2001, an unreconciled difference exists between
         BCDS and DOLAR$. After changes to the reconciliation process are implemented and the
         review by the central oversight is completed we will make the appropriate adjustments in
         DOLAR$ to reclassify funds in the back wage deposit accounts to the miscellaneous receipts
         accounts.

         OIG Conclusion:

         This recommendation remains resolved and open. We concur with the planned actions
         described by management and will review during the FY 2002 audit.


5.       Wage and Hour’s Civil Monetary Penalties System
         Status of Prior Year Findings and Recommendations

         CMP System Design

         Our FY 1997 audit report (OIG Report No. 12-98-002-13-001) identified the need to improve
         CMP financial systems. We made the following recommendations to the Acting Chief
         Financial Officer and the Assistant Secretary for Employment Standards:

     •   The CMP financial management systems should include the following features:

         -     A proper cutoff of accounting periods, with a limited period of time for correcting
               and recording transactions subsequent to the end of the period.

         -     The ability (and requirement) to close accounting periods.

         -     The ability to generate subsidiary reports using the same accounting cutoff and
               frequency as the general ledger control accounts.


OIG Report No. 22-02-004-13-001                                                                 Page 29
                                          CFO FINDINGS AND RECOMMENDATIONS
      -     Controls which will ensure that totals on the subsidiary reports agree to totals posted
            to the general ledger. Specifically, WHD should develop and implement procedures
            for reconciling cash receipts recorded in the CMP system with those recorded at the
            National Office into the DOLAR$ general ledger.

      -     Controls to ensure that recorded information is accurate, reliable, timely and
            complete.

  •   The CMP subsidiary systems used to support DOLAR$ general ledger accounts should:

      -     Meet the requirements listed in previous CMP recommendation above (The CMP
            financial management system should include the following features . . .).

      -     Provide a complete and accurate report of the source transactions which comprise
            the general ledger balance, thus providing an audit trail.

      While the new CMP system was not completed or implemented in FY 2001, compensating
      controls were put into place to ensure an adequate cut off of activity recorded at year end, and
      to improve the reliability of data recorded in the existing system. However, the new CMP
      system needs to include the features listed above as a long-term solution. The need for
      automated system controls will be crucial in future years as the Federal Government moves to
      quarterly reporting. These recommendations remain resolved and open. Closure is dependent
      on our review of all anticipated changes to the CMP automated and manual systems and the
      successful outcome of the FY 2002 audit.

      Management’s Response:

      Although we agree that additional measures can be taken to improve the CMP systemic
      controls, it is our belief that operational processes already in place are as important in ensuring
      timely and proper recording of financial activity. These operational processes for cutoff and
      closeout were implemented in July 2001 to ensure a proper cutoff at the end of the fiscal year.


      Automated features are necessary to ensure that financial activities are properly reported in the
      system. Within CMP 2001, we have included the ability to indicate both an accounting date
      and a transaction date and are working to establish a uniform policy for the use of accounting
      and transaction dates. The proper use of these dates will permit the identification of
      transactions related to a prior period without affecting previously reported balances to ensure
      that accounting periods are closed as required.

      OIG Conclusion:

      These recommendations remain resolved and open. We concur with the actions described by
      management and will review the new CMP system in our FY 2002 audit.




OIG Report No. 22-02-004-13-001                                                                 Page 30
                                          CFO FINDINGS AND RECOMMENDATIONS
       In our FY 1993 audit (OIG Report No. 12-94-012-07-001), we recommended the following:

  •    The Wage and Hour Division should complete its CMP tracking system so that it can
       function as a subsidiary system for CMP assessments, collections, adjustments, and related
       receivable balance on a case-by-case basis.

  •    Procedures should be developed and implemented to ensure that the CMP system and Back
       Wage Tracking System (BTS) remain up-to-date and in agreement with the control
       accounts in DOLAR$.

       As noted previously, the new CMP system was not completed or implemented in FY 2001.
       However, management has stated that the new system will provide a complete and accurate
       subsidiary report of the CMP receivables on a case-by-case basis, and will maintain balances
       which agree to the general ledger control accounts. These recommendations remain resolved
       and open. Closure is dependent on the review of the new CMP system and the successful
       outcome of the FY 2002 audit.

       Management’s Response:

       The new CMP 2001 system went into production on October 22, 2001. This new system is an
       enhancement to the existing CMP system that adds increased functionality and streamlined
       reporting. The Regional Office Civil Monetary Penalties (ROCMP) system of record as of
       September 30, 2001, provides complete and accurate subsidiary reports on CMP receivables
       on a case-by-case basis and maintains balances that agree to the general ledger control
       accounts. The differences between the CMP system and DOLAR$ noted by the auditors are
       considered small and immaterial and should not justify the continuance of this recommenda-
       tion. We are currently working with OMAP to examine the reports that we provide and the
       procedures that we use for reconciliation to ensure that CMP-DOLAR$ balances stay in
       agreement.

       OIG Conclusion:

       We do not concur that the dollar amount of the differences noted are an indication that the
       issues raised in this finding are fully resolved. This recommendations remain resolved and
       open pending our review of the new CMP system during our FY 2002 audit.


       Account Receivable Balances

       Our FY 1997 audit report (OIG Report No. 12-98-002-13-001) identified high error rates in
       the accuracy of CMP accounts receivable balances. We made the following recommendation:

   •   Implement properly designed internal controls which will provide management with
       reasonable assurance that the CMP financial management systems are operating
       effectively.

       This recommendation was originally made due to the high error rates noted in the testing of
       CMP accounts receivable. Errors were noted as to the accuracy, validity and timeliness of
       transactions recorded in the CMP system. Our FY 2001 audit indicated that management

OIG Report No. 22-02-004-13-001                                                              Page 31
                                          CFO FINDINGS AND RECOMMENDATIONS
      made significant improvements in the accuracy and reliability of accounts receivable recorded
      in the CMP system. However, we continued to note that new receivables and, to a lesser
      extent, cash receipts were not recorded in the system on a timely basis. Out of 169 cases
      selected for testing, 120 represented new receivables for FY 2001. Of these new cases, 23
      (19.2 percent), were not recorded timely. Our sample of 169 cases also included 97 cases with
      cash collections in FY 2001. Of these 97 cases, we noted 9 (9.3 percent) with cash receipts
      which were not recorded timely. Therefore, this recommendation remains resolved and open.
      Closure is dependent on the successful outcome of the FY 2002 audit.

      Management’s Response:

      While improvements in the accuracy, validity and timely recording of CMP accounts
      receivable balances are evident in the reduced audit error rates, we agree that additional steps
      can be taken to improve the system of controls for recording transactions. In this regard, we
      have taken steps to improve the operational processes to ensure timely and proper recording of
      accounts receivable and cash receipts. These operational processes were implemented in July
      2001 when Wage and Hour issued CMP Operations Memo 01-02. These new procedures were
      designed specifically to ensure a proper cutoff at the end of a fiscal year. In March 2001, an
      automated version of the monthly Pending Cases report was implemented, whereby District
      Office managers receive a list of all untransferred CMP assessments. They are required to
      report (no later than the 10th of each month) the status of these cases to allow Regional Office
      reviewers to determine if there are debts that should have been transferred. In March 2002 we
      will also implement an alert to Regional Office management if a District Office fails to run the
      daily tickler report for 5 consecutive days. This report is used to advise a District Office of
      those cases that require action on any given day.

      Wage and Hour is designing a Regional and National-level monthly report to provide Check
      Log statistical data generated by District and Regional Offices. This will include information
      on which specific offices are experiencing delays transferring debts (for which the Regional
      Office has received a check.) This should increase office accountability and prevent delays in
      the processing of checks by the Regional Offices.

      Wage and Hour has continued to conduct training for District Office personnel in the various
      Regions to emphasize the importance of promptness in transferring debts to the CMP system.
      Some Regions are incorporating standards for timely transfer of debts in the Accountability
      Reviews that they conduct to ensure procedural consistency and uniformity. In March 2002,
      we will incorporate an additional alert screen in WHISARD to advise District Office personnel
      of a case that appears to meet the criteria for transfer, but that has not yet been transferred to
      CMP 2001.

      OIG Conclusion:

      This recommendation remains resolved and open. We concur with the actions described by
      management and will review the new CMP system during our FY 2002 audit.




OIG Report No. 22-02-004-13-001                                                                Page 32
                                            CFO FINDINGS AND RECOMMENDATIONS

6.       FECA Program
         Status of Prior Year Findings and Recommendations

         Chargeback Accounting/Reconciliation with Treasury

         In our FY 1994 audit (OIG Report No. 12-95-004-07-001), we noted that the transactions per
         the Division of Federal Employees’ Compensation (DFEC) Chargeback System and the
         Statement of Transactions (SF-224) were not reconciled. Requisite adjustments made from FY
         1994 through FY 2001 have ranged from $2 million to $11 million. Additionally, a complete
         reconciliation between the accounting systems and the Treasury SF-224 reports is not
         performed. We made the following recommendations which have been reworded for clarity:

     •   We recommended the Chief Financial Officer ensures that monthly reports are designed
         and generated that contain the information necessary for the district offices to reconcile
         the transactions contained in the dispersing databases to the Chargeback System and
         subsequently to the transactions reported in the SF-224.

     •   We recommended the Chief Financial Officer ensures that the FECA Division reconciles
         the differences reported on the Funds with Treasury SF-224s with DOLAR$ and
         appropriate identifies and resolves the differences by ALC.

         The Office of Workers' Compensation Programs (OWCP), DFEC, does not reconcile the
         disbursing databases (Automated Compensation Payment System (ACPS) and Bill Payment
         System (BPS)) to the billing database, the Chargeback System. Further, neither the
         Chargeback System nor the ACPS and BPS, from which more than $2.1 billion is paid
         annually, are reconciled to the Treasury SF-224 reports.

         Management has not investigated the differences between the disbursing databases and the
         Chargeback System or the differences from the SF-224 to the extent adjustments for the
         differences could be posted to the proper ALCs. A report has not been designed with the
         details of credits, deposits, and cancellations in the ACPS and BPS which could be provided to
         the district offices to enable a complete reconciliation of the disbursing databases to the
         Chargeback System and the SF-224s.

         In prior years, the amount contained in the Chargeback System has varied from the Treasury
         SF-224 reports from $2 million to as much as $11 million. The unreconciled differences have
         not been investigated to determine where the differences originated and their proper resolution.
         The Chargeback System varied from the Treasury SF-224 reports by $2 million during FY
         2001.

         These recommendations remain unresolved. Resolution is dependent on the development and
         implementation of a process that requires each of the district offices to reconcile the SF-224s
         to the ACPS and BPS and the national office to reconcile the ACPS and BPS to the
         Chargeback System and DOLAR$.




OIG Report No. 22-02-004-13-001                                                                  Page 33
                                             CFO FINDINGS AND RECOMMENDATIONS
         Management’s Response:

         In previous responses to this recommendation, it was indicated that OWCP would dedicate
         additional budgetary and organizational resources to a new fiscal position. These new
         positions have been filled, and training for all the new Fiscal Operations Specialists has been
         completed. As proposed, the position description focuses on the areas necessary to accomplish
         the monthly reconciliation objective along with other important fiscal objectives.

         OWCP has attempted to develop a report that would be used for complete reconciliation, but
         as explained in response to last year’s Audit, we have determined that such a report is not
         possible without system redesign. Thus, as stated in prior years, the ultimate solution to this
         recommendation must await the FECS redesign system, which will comprehensively update
         and integrate the separate legacy systems for compensation (ACPS), bill payment (BPS), Debt
         Management and chargeback. Given the need for system changes and OWCP’s commitment
         of additional staff and resources for proper recording and investigation of differences, this
         recommendation should be resolved and open pending next year’s audit results and the
         completion of the FECS Redesign.

         OIG Conclusion:

         This recommendation will remain unresolved. OWCP should develop procedures to facilitate
         the reconciliation of the separate legacy systems with the transactions recorded in DOLAR$
         and in the Chargeback system. The development and successful completion of these
         procedures in cooperation with the redesign of the FECS system is necessary for closure of this
         recommendation, which will be reviewed during the FY 2002 audit.


7.       Performance Measures
         Status of Prior Year Finding and Recommendation

         In our FY 1992 audit, we made the following recommendation (OIG Report No. 12-93-008-
         07-001) to improve controls over the existence assertion for reported performance measures:

     •   The Chief Financial Officer should ensure that all material weaknesses identified in
         individual agency performance measures audit reports are addressed by the agencies to
         ensure the integrity and accuracy of information supporting program measurements.

         The single remaining open issue involves the verification process used to ensure the integrity of
         Unemployment Insurance Data Validation (UIDV) reporting.

         Verification Process — Office of Workforce Security, formerly known as Unemployment
         Insurance Service

         The Office of Workforce Security (OWS) has completed its 3-state pilot test of data
         validation. However, at this time the UIDV has not been fully implemented. Until the
         remaining 50 reporting units achieve full UIDV implementation, this recommendation remains
         resolved and open. Closure is dependent on completion of the OWS verification process and
         OIG assessment during the FY 2002 audit.

OIG Report No. 22-02-004-13-001                                                                  Page 34
                                           CFO FINDINGS AND RECOMMENDATIONS
         Management’s Response:

         Management Concurs.


8.       Funds with Treasury
         Status of Prior Year Findings and Recommendations

         Unreconciled Differences with Treasury

         In FY 2000 we noted a lack of document-level cash reconciliations being performed for
         Departmental Agency Location Codes (ALCs). We also noted a lack of cash reconciliations
         being performed at the appropriation level for Departmental transactions processed through
         non-Departmental ALCs (e.g., grant disbursements processed by the Department of Health and
         Human Services Payment Management System (HHS-PMS). This lack of timely and effective
         reconciliations resulted in large cash differences at year end.

         In our FY 2000 audit report (OIG Report No. - 22-01-006-13-001) we recommended that the
         Chief Financial Officer ensure that:

     •   Agencies identify and clear differences at the document level at least monthly.

     •   Reconciliation procedures effectively address Departmental funds processed through non-
         DOL ALCs (e.g. HHS, USDA, Treasury, etc.)

     •   Reconciliation worksheets are prepared in compliance with Treasury and OCFO guidance.

     •   The resolution of differences is adequately supported by source documentation.

         The last three recommendations are considered closed. The first recommendation, Agencies
         identify and clear differences at the document level at least monthly, remains unresolved
         with respect to ETA. Resolution is dependant on ETA developing a corrective action plan to
         perform prior year reconciliations for the HHS-PMS cash differences at the appropriation
         level.

         Management’s Response:

         ETA/OFAS developed a corrective action plan last year to address the issues raised by the
         OIG. Several of the prior year’s differences between the Fund Balance with Treasury and
         DOLAR$ have been resolved and corrected. Additionally, we have implemented a number of
         procedures and processes directly related to the OIG’s recommendations. Accordingly, we
         believe this finding should be resolved.

         OIG Conclusion:

         We acknowledge ETA’s submission of a corrective action plan; however, the plan stated that
         an assessment of the fund balance by appropriation would be completed by August 1999 and
         the resolution of differences would be completed by September 2001. However, our FY 2001

OIG Report No. 22-02-004-13-001                                                              Page 35
                                           CFO FINDINGS AND RECOMMENDATIONS
       audit results found that appropriation level differences still accounted for 85 percent of the
       total cash adjustment for FY 2001, which is substantially unchanged from FY 2000.
       Therefore, this recommendation is unresolved. Closure is dependent on the submission of an
       updated corrective action plan with new time frames for completion. The implementation of
       the proposed corrective action will be evaluated during the FY 2002 audit.


       In FY 1998 (OIG Report No. 12-99-002-12-001), we reported that the Department had
       unreconciled differences with Treasury. We recommended that the Chief Financial Officer:

   •   ensure that agencies are reconciling their differences properly and on a timely basis. The
       OCFO should monitor the agencies’ differences and work with the agencies and Treasury
       to resolve those differences.

       Our review of the Department’s ALCs revealed unreconciled differences of $10.3 million
       (absolute value) as reported on the September 30, 2001 TFS 6652s, Statements of Differences,
       for deposits and disbursements. This reflected a 22 percent decrease from the prior year.
       These differences were found in 33 of the Department’s 53 ALCs. Although timing
       differences may be expected (for transactions posted by Treasury at the end of a month and by
       the Department in the following month), over half (67%) of the total differences at year end
       relate to June 2001 or prior, dating back as far as September 1999.

       The following ALCs had an increase in differences recorded at September 30, 2001, as
       compared to differences recorded for September 30, 2000:



                                                        Absolute Value

                     Agency                FY 2001        FY 2000            Increase

             ETA - National Office $       3,311,317 $     1,434,162     $    1,877,155
             ETA - Dallas              $   1,204,731 $             42    $    1,204,689
             OASAM - Dallas            $     500,197 $       176,357     $      323,840

             OASAM - Denver            $     103,031 $          3,062    $       99,969

             ETA - Philadelphia        $     173,453 $         91,981    $       81,472

       Since the differences are netted at the ALC level, the actual misstatement could not be
       determined

       In July 2001, the Department began submitting to Treasury on a trail basis two ALCs
       monthly SF 224s, Statements of Transactions, via an electronic bulk file transfer through the
       GOALS II system. This process eliminates manual adjustment of the SF 224s and directly
       submits cash receipts and cash disbursement data as recorded in the DOLAR$ general ledger.
       While this system will minimize the need for year end adjustments at the appropriation level, it
       may not affect differences reported on the monthly TFS 6652s. These differences arise when
       amounts reported to Treasury from SF 224 data are compared with amounts reported to

OIG Report No. 22-02-004-13-001                                                                  Page 36
                                         CFO FINDINGS AND RECOMMENDATIONS
      Treasury by third-party depositories and disbursement centers. Therefore, the use of a bulk
      file transfer does not eliminate the need for agencies to identify and clear differences on a
      monthly basis. Because full implementation of the bulk file transmission did not occur until
      fiscal year 2002, we were unable to determine the effectiveness of this process along with the
      monthly cash reconciliations in reducing cash differences reported on the monthly TFS 6652s.

      This recommendation is resolved, closure is pending verification of the corrective action
      implementation in FY 2002.

      Management’s Response:

      Management concurs.




OIG Report No. 22-02-004-13-001                                                              Page 37
                                             CFO FINDINGS AND RECOMMENDATIONS


Management Advisory Comments


1.       Grant Accounting
         Current Year Findings and Recommendations

     a. Tracking Grant Closeout Process:

         DOL’s granting agencies need a means by which they can track, in DOLAR$, whether or not a
         grant has been closed. While the agencies are able to track which grants have gone through
         the closeout process, there is no effective method to identify grants and contracts which have
         not yet been submitted for closure. As a result, grants often remain open long after the grant
         period has ended. There are instances where transactions have been posted in DOLAR$ after
         the grant has been closed and received final certification. Also, grants can be archived from
         DOLAR$ without consideration of whether or not the grant has been closed. There are
         thousands of grant and contract documents recorded in DOLAR$, and the granting agencies
         need an efficient means of identifying open grants, preventing grants from being archived prior
         to closure, and preventing additional grant transactions after the grantee has certified final
         costs and payments.

         The Department’s accounting system should be used to achieve these objectives. One option
         would be to add a one-digit status code to DOLAR$ which would indicate whether a grant
         document is closed or open. Any document carrying a closed status would not be accessible
         for further transactions, and a document must carry a closed status in order to be archived (i.e.,
         removed from the active DOLAR$ database). Alternatively, grant closure could be
         coordinated with the archiving process. When a grant is certified and closed, it would be
         archived from DOLAR$. Thus, the granting agencies could go to the DOLAR$ Detailed
         Grant Report and know that all of the grants listed have not yet been closed. Archived grants
         would not be available for further transactions.

     1. We recommend that the Chief Financial Officer work with the granting agencies to
        develop a method, using DOLAR$, that will provide the agencies with the necessary
        information for closed versus open grants, would restrict access to closed grants, and
        would ensure that grants are not archived from DOLAR$ prior to grant closure.

         Management’s Response:

         Management will discuss this recommendation with the Department’s grantor agencies.
         Modifications of the accounting system will be based on the result of those discussions.

         OIG Conclusion:

         This recommendation is unresolved. Resolution is dependent upon development of an
         appropriate corrective action plan.




OIG Report No. 22-02-004-13-001                                                                   Page 38
                                          CFO FINDINGS AND RECOMMENDATIONS
     Status of Prior Year Finding and Recommendation

     Obligations Inappropriately Moved to Subsequent Fiscal Year

     Our FY 2000 audit (OIG Report No. 22-01-006-13-001) identified that ETA moved a portion of
     the obligation, payments and costs for certain grants from one fiscal year to the next. This
     practice was not in compliance with 31 U.S.C. Chapter 15. In response to this finding, ETA
     stated that OFAS was considering actions to be taken to alleviate this concern, and that a
     decision would be made on a course of action to be taken by the end of the third quarter of FY
     2001 and the action implemented during the fourth quarter of FY 2001. However, no actions
     were taken by management regarding this issue.

     We made the following recommendation:

 •   We recommended that the Chief Financial Officer and the Assistant Secretary for
     Employment and Training ensure that ETA establishes controls (including written policies
     and procedures) which will ensure that adjustments to obligations for closed accounts are
     posted only to current year appropriations and are properly authorized by the head of the
     agency when the amount of the adjustments exceeds the dollar threshold established in the
     regulations.

     This recommendation remains unresolved pending management’s submission of a specific
     corrective action plan for our review which identifies procedures and time frames for completion.

     Management’s Response:

     ETA’s OFAS implemented procedures in FY 2001 to prevent a reoccurrence of this type of
     transaction coming from the DHHS/ PMS.

     In July 2001, ETA/ OFAS sent a list of all the obligations in appropriations that would cancel at
     the end of FY 2001 to the DHHS who placed a block on all the obligations included in the list.
     The block prevented any transactions from taking place unless designated ETA/ OFAS staff
     authorized DHHS staff to remove the block.

     The OIG did not inquire about this finding as part of the OIG’s follow-up on prior year’s
     findings and recommendations to see if ETA/ OFAS had addressed the issue. Based on the
     procedures implemented in FY 2001, we believe this finding should be resolved.

     OIG Conclusion:

     Our recommendation asserts that ETA needs to establish written policies and procedures which
     would address the appropriate recording of obligation adjustments in DOLAR$, as well as the
     authorization requirements for such adjustments when required by the regulations. While the
     actions described by ETA may help to prevent situations requiring adjustment of obligations
     after they have expired, these actions do not address the appropriate course of action when an
     adjustment is necessary.

     This recommendation remains unresolved pending receipt of a corrective action plan addressing
     the actions defined above.

OIG Report No. 22-02-004-13-001                                                               Page 39
                                              CFO FINDINGS AND RECOMMENDATIONS


2.       Property
         Status of Prior Year Findings and Recommendations

         Capitalized Asset Property Management

         In our FY 1999 Management Advisory Comments (OIG Report 12-00-006-13-001), we reported
         that management’s capitalized asset tracking and reporting procedures are inadequate to ensure
         that disposals of capitalized assets are reported in a timely and accurate manner, and that assets
         are adequately safeguarded against loss or theft.

         We recommended the Chief Financial Officer ensure that:

     •   physical inventories of capitalized assets are performed on a periodic basis;

     •   periodic reconciliations of the capitalized asset subsidiary ledger are performed, using
         CATARS Physical Inventory Reports; and

     •   Accountable Property Officers (APOs) and Capitalized Asset Management Officers
         (CAMOs) receive adequate training in the disposal of capitalized assets.

         In response to our recommendations, the OCFO began to conduct regular meetings with
         Capitalized Asset Management Officers (CAMOs) to train them and emphasize the need for
         accurate and timely processing of disposals, and reconciliations between CATARS and physical
         inventories.

         Additionally, the OCFO sent instructions to the CAMOs which detailed physical reconciliation
         procedures. Although the agencies are now performing physical inventories to determine if the
         assets in CATARS still exist and are in use, we still found errors in the CATARS database. We
         tested a sample of 66 items from the April 30, 2001, CATARS database. We could not
         physically locate or verify the existence of 10 of the 66 items tested (15 percent), totaling
         $170,595 (asset cost). Seven of these 10 items are still included on the CATARS Detail Balance
         Report as of September 30, 2001, resulting in an overstatement of $117,534. Three of the 10
         missing items are recorded as disposed on the CATARS Disposal Report as of September 30,
         2001. Of these three items, two items could not be supported by a disposal form and one item
         was disposed in a prior year but is still listed on CATARS.

         Also, we tested 212 items reported on the September 30, 2001 CATARS disposal report and
         could not find the supporting DL 1-55c for 168 (79 percent) of them. This totaled $3 million of
         disposals which could not be supported. We also noted 19 instances in MSHA where an asset
         was disposed of but was still being carried in CATARS, thus resulting in an overstatement of
         assets at year end of $270,702.

         Part of the reason for these disposal errors is that agencies may write off assets not located
         without adequate follow-up. In order to ensure proper accountability, agencies should be
         completing a DL 1-55c at the time an asset is disposed, not when an asset cannot be located. In
         particular, we noted that BLS and ETA do not complete disposal forms at the time an asset is
         disposed but only at year end when the physical inventory is taken. At BLS, 99 items were

 OIG Report No. 22-02-004-13-001                                                                  Page 40
                                           CFO FINDINGS AND RECOMMENDATIONS
     recorded in CATARS as disposed but did not have adequate documentation supporting the
     disposal. This results in a lack of adequate safeguards and a lack of accountability over these
     assets.

     With respect to the performance of physical inventories on a periodic basis, this recommendation
     is closed. With respect to the periodic reconciliations and the disposal of assets, these
     recommendations are now unresolved pending receipt and review of a corrective action plan
     which addresses the proper accountability and disposals of assets. The corrective action plan
     should encompass the following new recommendations:

 •   We recommended that the Chief Financial Officer, the Commissioner of the Bureau of
     Labor Statistics and the Assistant Secretaries for Mine Safety and Health and Employment
     and Training ensure that:

     1.      procedures specified in the DLMS are followed for documenting the disposal of an
             asset at the time it is placed out of service, transferred, donated, etc., not as a means
             for reconciling the physical inventory.

     2.      accountable Property Officers and Property Management Officers follow proce-
             dures specified in the DLMS for determining liability for lost/missing, stolen, or
             damaged property.

     Management’s Response:

     BLS Response: BLS concurs with the OIG and has taken appropriate action to ensure that
     disposal forms are prepared by the Accountable Property Officers, submitted to the finance
     office, and recorded in CATARS in a timely manner. BLS property staff prepare form DL 1-
     55c for each disposal at the time of the disposal. BLS property staff will prepare a report each
     month of all disposals and the finance staff will use this report to ensure that CATARS is
     updated for all disposed capitalized assets and that the DL 1-55c is on file in the property office
     to support the disposal. BLS will advise Accountable Property Officers and Property
     Management Officers of the procedures for determining liability for lost/missing, stolen, or
     damaged property and follow these procedures.

     ETA Response: In an ideal world, ETA management cannot argue with the requirements of the
     DLMS and the OIG’s recommendations. Practically speaking, however, we make every effort to
     account for ETA property, plant, and equipment (PP&E) as timely and effectively as possible.
     Beginning in FY 2002, the ETA, OFAS has begun to implement quarterly reconciliations of
     PP&E.

     MSHA Response: MSHA will take steps to ensure we follow DLMS processes and procedures
     for the documentation and the disposal and equipment. MSHA is undertaking a complete
     inventory of all equipment and upon completion of the inventory MSHA will reconcile this
     information in CATARS.

     OIG Conclusion:

     With respect to BLS, this recommendation is resolved and open pending our review of the
     corrective action implementation during the FY 2002 audit.

OIG Report No. 22-02-004-13-001                                                                  Page 41
                                               CFO FINDINGS AND RECOMMENDATIONS


          With respect to ETA and MSHA, this recommendation remains unresolved. Resolution is
          dependent upon the receipt and review of agency corrective action plans with timeframes for
          completion. The corrective action plans must address the procedures for ensuring disposal forms
          are completed at the time of disposal, and the process for identification of missing, stolen and
          damaged property, and the procedures to be followed for determining liability in such cases.

3.        Job Corps Data Center Operations
          Current Year Findings and Recommendations

          The Job Corps Student Pay Allotment and Management Information System (SPAMIS) is used
          by the Job Corps program to process approximately $80 million (annually) of student allowance
          and bonus payments. Cash required to fund student payrolls is electronically transferred from
          the SPAMIS data center to the individual Job Corps centers (via electronic fund transfers), and
          then reimbursed from DOL to the data center (via the HHS PMS system). Our audit of the
          activities processed by the data center during FY 2001 disclosed the following:

     a.   A general ledger was not maintained to record the financial activities of the SPAMIS data
          center

          In FY 2001, the data center discontinued preparation of a monthly general ledger. In the past, a
          general ledger system was utilized to account for all of the financial transactions of the data
          center, including cash received from DOL, cash transferred to the Job Corps centers for various
          allowance and bonus payments, and payments made to the IRS for student payroll taxes and
          FICA taxes. The cash balance recorded in the general ledger was routinely reconciled to the data
          center bank account to which the cash draws were transmitted. However, in FY 2001, the data
          center discontinued these practices. This is not in accordance with the contract Statement of
          Work, which requires JCDC to perform all payroll functions including general ledger posting and
          reconciliation.

     b.   HHS drawdowns could not be reconciled with the data centers bank statements

          We attempted to trace SPAMIS drawdowns made via the HHS Payment Management System
          (PMS) into the SPAMIS bank account to determine if the drawdowns were accurately and
          completely credited to the data center’s account. We found that HHS drawdowns could not be
          readily identified on the bank statements, and that the total credits per the bank statements
          exceeded the total HHS draws. The difference was approximately $1.2 million. The center had
          not been routinely performing these reconciliations and was unable to provide an explanation as
          to the $1.2 million difference. In addition, the bank did not list individual transactions on the
          bank statements, and it was very difficult to identify individual draws.

     c.   Drawdowns exceeded SPAMIS cash requirements due to overpayment of IRS taxes

          We tested the amount of SPAMIS cash requirements (i.e., student payroll, termination and post-
          termination bonuses, and related payroll taxes) during the interim period (October 1, 2000, to
          March 31, 2001). For the 6 month period ending March 31, 2001, SPAMIS cash requirements
          (adjusted) consisted of the following:


 OIG Report No. 22-02-004-13-001                                                                   Page 42
                                             CFO FINDINGS AND RECOMMENDATIONS
              Student Payroll                             $ 22,828,742
              Payroll Tax                                    2,599,902
              Termination Pay                               11,810,178
              Termination Payroll Tax                        2,679,275
              Post-termination Payroll Tax                     463,548
              Total SPAMIS Cash Requirements               $40,381,645

      Total cash drawdowns made by SPAMIS for the purpose of meeting cash obligations were
      $40,612,475, for a variance of $230,830. This variance was identified as a duplicate tax
      payment to the IRS.

 d.   The Job Corps Data Center overpaid taxes by $267,309

      We traced Federal income taxes withheld in CY 2001 per IRS Form 941 to the supporting
      schedule of SPAMIS cash requirements without exception. However, we noted that an
      adjustment to withholding payments was made by the data center in the amount of $267,309,
      which resulted in a net reduction in payments to the IRS. Upon inquiry we found that the data
      center had identified tax overpayments for CY 2000 and applied the credit to the current (CY
      2001) tax liability. While the data center eventually credited the overpayment, the overpayments
      resulted in an excess amount of cash being drawn down and unnecessarily paid out over the
      course of the previous year.

      These findings were caused by the fact that the general ledger and corresponding controls were
      not maintained during the year. The data center underwent a contractor change and the
      individual in charge of preparing a general ledger is no longer employed at the data center. The
      new staff had limited knowledge of the prior practices and procedures for generating a general
      ledger or for preparing some of the requisite cash reconciliations, and were unable to locate the
      chart of accounts, operating manuals and prior period financial records.

      It is essential that the data center operate a general ledger system to fully account for Job Corps
      resources under their control. Without a general ledger and corresponding controls (such as cash
      reconciliations, etc.), the data center cannot provide a complete and accurate accounting of the
      resources transferred from DOL. Furthermore, the lack of general ledger controls creates a
      higher level of inherent risk that the existing records will not accurately identify and record all
      cash, payroll expenses, tax liabilities, and other financial transactions relative to the data center’s
      activities, and that errors or irregularities will occur and not be detected and corrected on a
      timely basis.

      We recommend that the Chief Financial Officer and the Assistant Secretary for Employ-
      ment and Training ensure that the Office of Job Corps:

 1.   Require the current contractor for the Job Corps Data Center to provide a complete and
      accurate accounting of the resources transferred from DOL, and resume operation of a
      general ledger system complete with reconciliation processes and other relative procedures.

 2.   Require Job Corps staff assigned to the data center to monitor and report on the progress
      of the data center in bringing the accounting records up to date, as well as ensuring that the
      processes put into place are performed on a routine basis as part of regular, routine
      operations.

OIG Report No. 22-02-004-13-001                                                                     Page 43
                                           CFO FINDINGS AND RECOMMENDATIONS
     Management’s Response:

     We concur with the finding. Steps will be taken to re-establish the general ledger and use it on a
     regular basis to assist in regularly reconciling bank statements against draws and student payroll.
     Specific action items are as follows:

     1.      Acquire the services of a certified public accountant (CPA) to assist the JCDC in re-
             establishing the general ledger.

     2.      Receive proposal for services from the CPA

     3.      Review proposal and finalize the statement of work.

     4.      Issue purchase order. Estimated date: 25 January 2002.

     5.      Based on an initial discussion with the CPA, the following actions will be required:
             a.     Re-define the account structure reducing the current 4000 accounts to a more
                    manageable size.
             b.     Acquire an improved accounting software package to facilitate producing the
                    GL.
             c.     Define reports for account management.
             d.     Bridge data from the SPAMIS application to the new accounting software.
             e.     Interface bank data to the new accounting software.
             f.     Establish the new accounting structure and report definitions into the new
                    accounting software.
             g.     Test data bridge from SPAMIS.
             h.     Test data transfer of bank information to the new accounting software.
             i.     Test system implementation.
             j.     Develop procedures for GL use on a daily/monthly basis.
             k.     Train JCDC personnel on the new system.
             l.     Bring the account up to date and validate the GL.
             m.     Implement operational use of the system by April 30, 2002.

     With respect to reconciling HHS draw downs versus bank cash deposits, the data center has been
     successful in persuading the bank to revise the format of the bank statements which will readily
     identify individual deposits. We have already reconciled HHS draws for the past year and will
     make this part of our routine monthly procedures.

     OIG Conclusion

     We concur with the plan outlined by management. This recommendation is resolved and open.
     Closure is pending our review of the progress made at the data center during our FY 2002 audit.




OIG Report No. 22-02-004-13-001                                                                Page 44
                                               CFO FINDINGS AND RECOMMENDATIONS

4.        Accounting for Nonpayroll S&E Accounts Payable
          Current Year Finding and Recommendation

     a.   Accounts Payable

          We noted that several agencies did not follow the OCFO’s guidance for establishing an accrual
          for goods and services received. Specifically, we noted that ETA, OSHA and FMSC did not
          record all accounts payable accruals at year end as required by the OCFO guidance. We tested
          $33.4 million of recorded accounts payables and found this amount was understated by $4.7
          million (14 percent).

          ETA and OSHA have chosen not to record an accrual unless they have an invoice in hand.
          FMSC has made progress in refining its year end accrual process; however, they have not been
          able to obtain the necessary information from the ordering offices in order to make all year end
          accruals.

          Recommendation

     1.   We recommend that the Chief Financial Officer and the Assistant Secretaries for
          Occupational Safety and Health, Administration and Management, and Employment and
          Training, ensure year end accruals are properly determined and recorded.

          Management’s Response:

          ETA Response: The ETA, Office of Financial and Administrative Services (OFAS) is doing
          everything possible to reflect accounts payable activity in the appropriate fiscal year. From
          October 1 until the day the OCFO stops our dual year authority in the DOLAR$, the ETA,
          OFAS processes every invoice received in the appropriate fiscal year, including tracking the
          invoices that are received in October and processed back to September.

          However, the time frames established by the OCFO to process year end activity are too
          constrained in order to process invoices received and determine if there is a need to accrue
          properly for every single open obligation. For FY 2001, the cut-off date to process invoices in
          the DOLAR$ Accounts Payable System was October 18, 2001. Consequently, there was,
          simply, not enough time to ensure that every invoice is processed or accrued given that (1)
          vendors close their accounting systems and prepare and submit invoices in the following month,
          (2) invoices received must be routed for approval by the Contracting Officer’s Technical
          Representative, and (3) the ETA, OFAS’s primary objective is to process all September invoices
          received before the cut off date and avoid the duplicate work in processing invoices for payment
          and accruing and reversing any invoices not processed.

          OSHA Response: OSHA has requested and received dual year access authority for the
          employee responsible for entering these data into the DOLAR$ system. We believe that all
          accounts payable accruals in 2001 were handled according to guidance and that this finding is no
          longer an issue for OSHA. OSHA expects the 2002 accounts payable data also will be recorded
          as required by OCFO guidance and believe that this recommendation should be considered
          resolved and closed for OSHA.


 OIG Report No. 22-02-004-13-001                                                                    Page 45
                                           CFO FINDINGS AND RECOMMENDATIONS
     OCFO Response: It is the OCFO’s policy and guidance that accruals should be made for goods
     and services that have been received but not paid for as of the balance sheet date. However, the
     OCFO also recognizes that materiality and cost-benefit are important factors in management’s
     decision to allocate scarce resources to the goal of recording all accruals at year end as required
     by OCFO guidance. While the OCFO will continue to provide guidance and assist agencies in
     recording accruals, it is our opinion that the Department’s accounts payable are fairly stated, in
     all material respects. We consider this matter closed.

     OIG Conclusion:

     The Department issued guidance to the agencies for procedures to ensure that reliable year end
     accrual estimates are recorded. Some agencies have effectively implemented the guidance and
     others have not. OCFO indicates in its response that compliance is at the option of management
     based on agency constraints.

     We concur that accounting procedures need to be developed in light of materiality and cost-
     benefit factors. However, these factors should have been considered before the guidance was
     issued. The OCFO should either review and revise the guidance to efficiently and effectively
     address the accrual process or enforce the implementation of the existing guidance. Therefore,
     this recommendation remains unresolved pending receipt and review of effective and enforceable
     accrual guidance.


     Status of Prior Year Findings and Recommendations

     Working Capital Fund

     The New York Centralized Administrative Support Unit (CASU) underestimated its require-
     ments for services provided through the Working Capital Fund (WCF) in FY 2000. This could
     have resulted in a potential Anti-Deficiency Act violation had the Department not identified the
     shortfall and submitted to OMB a fourth quarter apportionment request for additional funding.
     The signed apportionment was returned to the Department in mid-September, and contract
     modifications for the additional obligational authority were submitted by the CASU at fiscal year
     end. However, the services to be paid for with these funds were received throughout the fourth
     quarter. Our testing revealed that 3 CASU documents out of the 25 WCF documents in the
     sample had obligations posted on or near September 30th relating to expenses incurred earlier in
     the fourth quarter.

     Because the Department was monitoring these funds independently from the CASU, a timely
     apportionment was submitted which prevented the potential violation of the Anti-Deficiency Act.
     However, it appears that due to the rapid growth and expansion of services , the New York
     CASU lacks the necessary internal controls to adequately determine its costs and to obtain the
     necessary funding on a timely basis.


     In our FY 2000 management advisory report (OIG Report No. 22-01-009-13-001), we
     recommended the Chief Financial Officer and the Assistant Secretary for Administration and
     Management:


OIG Report No. 22-02-004-13-001                                                                 Page 46
                                              CFO FINDINGS AND RECOMMENDATIONS
     •   Ensure that an onsite review is conducted of the New York CASU operations and internal
         controls for developing adequate funding estimates for services provided through the WCF.

         In FY 2001, OASAM hired an independent CPA firm to review the CASU’s financial
         operations. The Department will be receiving a report and will forward it to us for review.

         In addition, OASAM established a panel of DOL managers to develop a 5-Year Business Plan
         for the CASU. The draft plan will also be forwarded to us for review.

         Also, CASU has arranged to conduct formal meetings on a semiannual basis with the Director of
         the FMSC and members of the FMSC staff. The purpose of these meetings will be to review
         budget performance, identify trends and patterns, and utilize that information to assist in
         financial planning for the CASU.

         This recommendation remains resolved and open, pending our receipt and review of the report,
         the business plan, and implementation of the corrective actions identified.

         Management’s Response:

         The independent CPA audit of the CASU’s financial operations for the 6 months ending 3/31/01
         has been completed and a corrective action plan has been drafted. Copies of both will be
         forwarded to the OIG as the OCFO receives them.

         OIG Conclusion:

         This recommendation remains resolved and open pending our review of the corrective action
         implementation during the FY 2002 audit.


5.       Unemployment Trust Fund
         Status of Prior Year Finding and Recommendation

         Unemployment Compensation Advisory Council

         During our FY 1997 audit, we noted that the Unemployment Compensation Advisory Council
         (UCAC) required by the Social Security Act has not been reestablished. Section 908 of the
         Social Security Act makes no provision for delaying the establishment of a new Advisory
         Council, and the issues for which the Council is responsible are significant to the UI program.
         We made the following recommendation (Report No. 12-98-002-13-001):

     •   We recommended that the Assistant Secretary for Employment and Training ensures that the
         Unemployment Compensation Advisory Council is reestablished as required by Section 908
         of the Social Security Act.




 OIG Report No. 22-02-004-13-001                                                                   Page 47
                                               CFO FINDINGS AND RECOMMENDATIONS
         As of FY 2001, a new UCAC has not been established. Because a new Advisory Council has
         not been established nor has a time frame been provided as to when another council would be
         discussed or established, this recommendation remains unresolved.

         Management’s Response:

         Management has no further comments.


6.       Federal Employees Compensation Act (FECA)
         Status of Prior Year Findings and Recommendations

         Accounts Receivable

         In our FY 1996 audit (OIG Report No. 12-97-005-13-001), we made the following recommenda-
         tions:

     •   We recommended that the Chief Financial Officer and the Assistant Secretary for
         Employment Standards ensure that FECA implements the following in regard to the
         accounts receivable:

         S       Implement an accounts receivable system that ensures that debts are reviewed
                 periodically, collected timely and written off in accordance with the Debt Collection
                 Improvement Act of 1996.

         S       Implement the Debt Collection Improvement Act of 1996 with regard to maintaining
                 the social security number of the individual to whom benefits were paid.

         Adequate reviews of the detailed accounts receivable subsidiary ledger for posting errors, correct
         assessments of interest, current status of balances, and the write-off of uncollectible balances are
         not being performed. Management issued a Bulletin that directs the district offices to review the
         accounts receivable balances, determine those debts on which a perpetual debtor status is in
         effect and make attempts to rectify the perpetual debtor status through compromise, write-off, or
         alteration of the existing payment plan. The number of errors identified has been reduced from
         prior years; however, accounts continue to have interest assessed which is greater than the
         amount of the payment which is meant to cover principle and interest. There are 88 accounts
         receivable with a payoff life greater than 30 years totaling $8,090,515.

         The first recommendation remains resolved and open. Closure is dependent on debts being
         updated to final from preliminary in a timely manner, the accuracy of accounts receivable
         balances and the accuracy of interest assessments to prevent claimants from being placed in a
         perpetual debtor status which will be determined during the FY 2002 audit.

         The Division of Employees’ Compensation (DFEC) does not maintain the social security number
         in its ACPS database for individuals paid benefits and are other than the claimant, such as
         widows and other beneficiaries. As such, DFEC is not in compliance with the Debt Collection
         Improvement Act, which requires that the social security number of each recipient of Federal
         benefits be maintained. Also, referral of debts to the Treasury for administrative offset requires

 OIG Report No. 22-02-004-13-001                                                                    Page 48
                                           CFO FINDINGS AND RECOMMENDATIONS
     the social security number of the individual to which benefits were paid. A redesign of the ACPS
     is in process that will provide for the recording of the benefit recipient’s social security number
     when different from the social security number of the claimant.

     The second recommendation is now resolved and open. Closure is dependent on the implemen-
     tation of the system redesign and verification that the benefit recipient’s social security number is
     being maintained.

     Management’s Response:

     Both parts of this recommendation are considered resolved by the OIG. DFEC has procedures in
     place which address debt management, including the accuracy of accounts receivable balances
     and interest rates. District offices report any outstanding delinquent debts to the National Office
     on a quarterly basis, and this data is also reviewed by our own internal accountability reviews.
     Improvement in these areas is evidenced by the fact that no finding was made in recent audit
     reports in this area. With respect to the second part of this recommendation, a procedure for
     maintaining the social security number of the individual recipient of death benefits will not be
     implemented until the system redesign is in effect.

     OIG Conclusion:

     These recommendations remain resolved and open. Closure is dependent on debts being
     updated to final from preliminary in a timely manner, the accuracy of accounts receivable
     balances and the accuracy of interest assessments to prevent claimants from being placed in a
     perpetual debtor status and the implementation of the system redesign and verification that the
     benefit recipient’s social security number is being maintained which will be determined during
     the FY 2002 audit.


     Updated Procedure Manual

     In our FY 1999 Management Advisory Comments (OIG Report No. 12-00-002-13-001), we
     noted the FECA Procedures Manual was outdated in several areas. We made the following
     recommendations:

     The Acting Chief Financial Officer and the Assistant Secretary for Employment Standards:

 •   Update the FECA Procedures Manual.

 •   Establish a policy that the FECA Procedures Manual be promptly updated.

     During our FY 2001 audit, we found that the FECA Procedure Manual was still outdated and
     did not contain complete and accurate information on how transactions are processed or policies
     and procedures to be followed.




OIG Report No. 22-02-004-13-001                                                                  Page 49
                                           CFO FINDINGS AND RECOMMENDATIONS
     The DFEC is updating the computer systems used in processing payments under FECA. The
     FECA Procedures Manual should be updated in conjunction with the update of the FECA
     computer systems. Failure to update the FECA Procedures Manual could preclude the complete,
     accurate and timely processing of FECA transactions.

     These recommendations remain unresolved. Resolution is dependent on a corrective action plan
     that would update the FECA Procedure Manual in conjunction with the FECA computer system
     updates.

     Management’s Response:

     The FECA Procedure Manual is continually undergoing update and revision. The revision of
     Part 6, Debt Management, is complete for the present time, and will be published pending review
     by the Office of the Solicitor. Drafts for portions of Part 5, Benefits Payment, of the FECA
     Procedure Manual are completed and will be published pending upper level review. At least two
     additional full-time staff will be dedicated to review and update of Parts 2 and 3, Claims and
     Medical, of the FECA Procedure Manual, and the incorporation of aged FECA Bulletins. With
     regard to small scale updates and minor corrections to the procedure manual, the method of
     going directly to the manual via a transmittal will be used more widely.

     In addition, the FECA computer system update (ADP redesign) is fully underway. It is
     recognized that when implemented, the new system will require corresponding procedures. The
     additional employees in the Branch of Regulations and Procedures will be set to the task of
     accomplishing this objective.

     OIG Conclusion:

     The first recommendation remains unresolved. Resolution is pending a specific plan that
     includes updating the necessary parts of the Procedures Manual and the actual updating of those
     sections. The second recommendation is now resolved and open. Closure is dependent upon
     the receipt, review and implementation of the updated portions of the Procedure Manual and
     FECA’s adherence to the policy that the FECA Procedure Manual be updated within one year of
     FECA Bulletin publications.


     Accuracy of Compensation Payments

     In our FY 1997 Management Advisory Comments (OIG Report No. 12-99-001-13-001), the
     following recommendation was made:

 •   The Acting Chief Financial Officer and the Assistant Secretary for Employment Standards
     emphasize to claims examiners the necessity of computing accurate compensation payments.


     During our FY 2001 audit, inaccurate compensation payments were made in 16 of 177 cases
     tested (9 percent). Daily and initial periodic roll payments are required to be reviewed for
     appropriateness and accuracy by a Senior Claims Examiner (SCE). The district offices have
     received additional staffing through periodic roll units to concentrate on the review of long-term
     cases. The periodic roll units should review in detail the pay rate and compensation percentage.

OIG Report No. 22-02-004-13-001                                                                 Page 50
                                           CFO FINDINGS AND RECOMMENDATIONS
     We also noted instances where claimants had notified OWCP that they had not received a
     compensation payment, at which time OWCP was to determine whether the previous payment to
     the claimant had cleared Treasury and if not, process a replacement check. If the previous
     payment had not cleared Treasury, the payment was to be canceled with Treasury and in the
     ACPS. OWCP did not properly cancel payments both with Treasury and in the ACPS in 6 of 63
     (10 percent) of the instances. As a result, the ACPS reflects that some claimants have been paid
     in duplicate, when in fact, the original payment was not received by the claimant but has not yet
     been canceled in the ACPS

     The importance of computing accurate pay rates, determining the correct effective pay rate and
     pay date, and computing the proper period for which compensation is to be paid, should be
     communicated to the claims examiners. Also, properly resolving outstanding check tracers
     should be emphasized to the claims examiners.

     This recommendation remains unresolved. Resolution is dependent upon receipt of a corrective
     action plan that ensures:

     -       additional controls are developed that are designed to ensure that pay rates are calculated
             accurately;
     -       that SCEs or higher grade certifiers detect errors made in the computation of compensa-
             tion payments; and
     -       that follow up on check tracers are conducted and the ACPS annotate accordingly.

     Management’s Response:

     Higher grade certifiers are currently used to verify that all the factors or elements used/entered
     for calculating the payment are correct. The factors for calculating the payment include the pay
     rate, the effective date of the pay rate, whether or not night differential or premium pay is
     involved, whether or not the claimant has dependents other than him or herself, and the period of
     entitlement. In almost all instances the computer system (ACPS) does the actual calculation of
     the dollar amount based on the factors entered. Review of the existing controls and instructions
     has indicated that they are comprehensive. In addition we continue our vigilance in monitoring
     this area through both the audit and the accountability reviews conducted each year. Towards
     that end, we have made payment accuracy one of our critical review (“index”) items. These
     index items are used to factor our overall measure of quality of work for the individual offices,
     as measured during accountability review.

     In order to improve agency performance regarding the tracing of lost or stolen checks, the DFEC
     has taken two major steps:

     1. We have installed the Treasury's new electronic check tracing system (PACER) which allows
     the immediate cancellation of outstanding checks. The system also provides an imaged copy of
     the check in question, so that the signature on the check can be quickly confirmed. All district
     offices are using the system, allowing quicker processing on check tracers. In addition, an on-
     line Check Register has been established, to facilitate obtaining the information necessary to
     trace a payment. More importantly, these steps greatly improve the response time between the
     Treasury and the DFEC, allowing the agency to properly re-issue or cancel checks as necessary.




OIG Report No. 22-02-004-13-001                                                                Page 51
                                            CFO FINDINGS AND RECOMMENDATIONS
     2. The DFEC has created a new position (Fiscal Operations Specialist) which has been charged
     with tracking all check trace requests. The individual assigned to that position will request
     tracers from the Treasury, and either re-issue or cancel payments, as necessary. More
     importantly, the individual will also be required to track all related actions, to insure that credits
     are posted timely and duplicate payments due to lost or stolen checks are avoided.

     We believe that this finding should be closed.

     OIG Conclusion:

     This recommendation is now resolved and open. Closure is dependent on the review of the new
     PACER system and the effectiveness of duties being performed by the Fiscal Operations
     Specialist in ensuring that follow up on check tracers are conducted and the ACPS annotated
     accordingly which will be evaluated during the 2002 fiscal year audit.


     Continuing Eligibility

     In our FY 1997 Management Advisory Comments (OIG Report No. 12-99-001-13-001), we
     made the following recommendation:

 •   We recommended that the Acting Chief Financial Officer and the Assistant Secretary for
     Employment Standards reemphasize (through training or other means) that claims
     examiners:

     -       are responsible for obtaining the support for a claimant’s current disability status;
     -       should document their requests for such support; and
     -       should follow the procedures in the Federal (FECA) Procedure Manual, Chapter
             2-812 when a claimant fails to provide requested information.

     Prior years’ audits noted that current CA-1032s had not been requested or received. A CA-1032
     is a claimant’s annual self-certification as to eligibility for benefits and report of earnings
     information. Claimants are required to disclose a change in marital, dependent, or employment
     information as well as whether or not the individual has been incarcerated. The Claims
     Examiners check the information reported by the claimant on the CA-1032 with the information
     in the ACPS and claimant file and adjust the claimant’s benefits accordingly.

     The FY 2001 audit found that in 2 of 82 instances (2.4 percent), a current CA-1032 was not
     obtained to support the claimant’s current disability status. The audit also found that in 2 of 82
     instances (2.4 percent), current medical evidence was not obtained to support the claimants’
     current disability status. Current medical evidence is required from every year to every 3 years
     to verify the claimant’s continuing disability status. In addition, we selected a sample of 50
     items on which compensation benefits had been paid, no medical payments were identified during
     the past year in the BPS, and which were in a short-term disability status. Thirteen of the 50 (26
     percent) cases tested, from a population of 1,313 cases, did not contain medical evidence.




OIG Report No. 22-02-004-13-001                                                                    Page 52
                                              CFO FINDINGS AND RECOMMENDATIONS
         This recommendation is resolved and open. Improvement was noted from the prior year’s
         errors. Closure is dependent upon the continued decline of errors in ensuring that CA-1032s and
         medical evidence are requested and received from claimants on a timely basis or that benefits are
         suspended if claimants do not furnish required information, which will be reviewed during the
         FY 2002 audit.

         Management’s Response:

         OWCP continues to follow its recently established procedures for obtaining the evidence to
         support continuing eligibility for compensation benefits payment. We continue to emphasize
         (through training and monitoring via the bi-annual accountability reviews) the claims examiners’
         responsibility to obtain the evidence and take action when the claimant does not comply by
         completing and returning the CA-1032.

         We agree with OIG’s finding that this recommendation is resolved, and based on continued
         improvement demonstrated by the continued decline of errors from prior years, this recommenda-
         tion should be closed.

         OIG Conclusion:

         This recommendation remains resolved and open. Closure is dependent upon the sustained
         decline of errors in ensuring that CA-1032s are requested and received from claimants on a
         timely basis. Closure is also dependent on improvements on obtaining medical evidence or
         suspending benefits if claimants do not furnish required information.


7.       Procurement
         Status of Prior Year Findings and Recommendations

         Audit results for FY 1998 through FY 2000 identified purchases in excess of the $2,500 micro-
         purchase limit, missing credit card statements and supporting documentation, and the DLMS had
         not been updated.

         Purchases that exceed $2,500 micro-purchase limit

         In FY 2000, we reported that in BLS, two credit card statements had purchases that exceeded the
         $2,500 threshold, in violation of the FAR and departmental policy.

         In the FY 2000 management advisory report (OIG Report No. 22-01-009-13-001), we
         recommended that the Chief Financial Officer and the Assistant Secretary for Administration and
         Management:

     •   ensure that the purchase limits on the cards are properly established and are functioning
         (i.e., work with Citibank and perform tests of these limits)




 OIG Report No. 22-02-004-13-001                                                                  Page 53
                                          CFO FINDINGS AND RECOMMENDATIONS
     The Department has not yet addressed this recommendation. In addition, we noted two instances
     in ETA where the cardholder did not even have a single purchase limit established. Therefore
     this finding remains unresolved pending receipt of corrective action.

     Management’s Response:

     The Federal Acquisition Regulation at Parts 8 and 13 provides for use of the purchase card as a
     payment mechanism where an ordering mechanism already exists in the form of an agency
     contract, a GSA schedule contract or other agency contract, or a purchase order. Although the
     Department of Labor’s current procedure manual provides guidelines which emphasize the
     micro-purchase limit for the purchase card, this restriction is intended to prevent misuse by
     cardholders who do not have adequate training to make this distinction. We have initiated a
     procurement management review program for DOL contracting offices, of which the purchase
     card program is a part. Due to limited resources, our procurement analysts are not able to
     review the transactions of every credit card holder in the Department. Therefore, the analysts are
     required to conduct samplings of the credit card transactions for the agency being reviewed and
     to collect use and abuse data. Through this review mechanism, we are able to gather trend data
     and ensure that the purchase limits on the cards are properly established and enforced. We are
     also working with Citibank, the contractor, to ensure all credit card limit restrictive mechanisms
     are activated as delineated under its contract provisions. The Department's Procurement
     Executive will also issue a memorandum to all purchase cardholders and approving officials,
     reminding them of their responsibility to adequately monitor purchases to ensure that the single
     purchase limit is not exceeded. We will also obtain a list of cardholders who have single
     purchase limits above $2500 in the CitiBank system, to be used in discussion with the agencies
     for corrective action.

     OIG Conclusion:

     Management has proposed several corrective actions to address this finding, but has not provided
     timelines for completion. Additionally, the issue concerning cardholders without a single
     purchase limit was not addressed. Therefore, this recommendation remains unresolved pending
     receipt and review of a corrective action plan with timeframes for completion.


     Missing credit card statements and supporting documentation

     In FY 1999 we reported that BLS, ETA, and OSHA had many cardholder statements missing
     from Servicing Finance Office (SFO) files. In addition, many of the credit card charges lacked
     adequate supporting documentation, such as receipts, invoices, packing slips, and other
     supporting documentation.

     We made several recommendations addressing Department-wide policy and training issues. In
     the FY 1999 management advisory report (OIG Report No. 12-00-006-13-001), we recom-
     mended that the Chief Financial Officer and the Assistant Secretary for Administration and
     Management:

 •   Revise the credit card policies to clarify what documentation agencies must maintain to
     support credit card purchases.


OIG Report No. 22-02-004-13-001                                                               Page 54
                                          CFO FINDINGS AND RECOMMENDATIONS
     In FY 2001, the Department indicated that the Procedures for Use of Credit Cards for Micro-
     Purchases (May 17, 1999) is being revised and that it has formed a group to address issues
     related to invoice processing using the card vendor’s on-line payment system (CitiDirect).

     The Department has not, however, provided to us the draft manual nor a corrective action plan
     which includes timelines for completion and indicates the responsible official. Therefore this
     recommendation remains unresolved, pending receipt and review of an acceptable corrective
     action plan.

     Management’s Response:

     OASAM concurs with this recommendation and has implemented procedures to ensure
     compliance with it. The Department's purchase card manual is in the process of being revised.
     A workgroup established to make the revisions is also addressing issues related to invoice
     processing using the card vendor's on-line payment system (CitiDirect), and relating to threshold
     issues as they affect the Department's credit card rebate. The current draft of the manual will
     require that documentation be retained for three years, and institutes training requirements for
     card holders who will use the purchase card for purchases above the micropurchase threshold as
     a payment mechanism only. Open market single purchases using the card continue to be
     prohibited above the micro purchase threshold of $2500. Completion of the purchase card
     procedure revisions is expected by the end of the third quarter FY 2002. It will then require
     circulation and concurrence of stakeholders and we anticipate final publication within the
     Department before the end of the fiscal year. It was our stated intention to issue a complete
     revision of the Department’s purchase card procedure manual by the end of FY 2001. Due to
     the aforementioned workgroup, which is also charged with working out procedures to implement
     use of CitiBank’s online reporting and payment system known as CitiDirect, this new procedure
     manual has only been partially drafted.

     OIG Conclusion:

     Our recommendation addresses the need to clarify what documentation should be maintained in
     support of credit card transactions. Although Management has indicated that a manual is being
     drafted and has included timeframes for completion, it has not specifically addressed this
     documentation issue. Therefore, this recommendation remains unresolved.


 •   Establish procedures for all agencies to follow and identify the consequences of instances of
     missing cardholder statements or lack of adequate documentation.

     OASAM has indicated they will incorporate guidelines for revocation in the revised Procedures
     for Use of Credit Cards for Micro-Purchase. We have not yet received this manual for review
     with these changes incorporated.

     Although some agencies have begun to aggressively pursue cardholders who have not submitted
     statements, we noted several instances in our FY 2001 audit where a cardholder was repeatedly
     delinquent or did not have adequate documentation.




OIG Report No. 22-02-004-13-001                                                               Page 55
                                           CFO FINDINGS AND RECOMMENDATIONS
     Missing statements and/or documentation are “red flags” which indicate increased risk of
     possible fraud, waste, or abuse. These red flags require immediate attention to determine if there
     is evidence of any wrongdoing. Agencies should work with the OIG Office of Labor Racketeer-
     ing and Fraud Investigations (OLRFI) to determine under what conditions or circumstances
     agencies should refer cardholders to OLFRI for possible investigation related to unsup-
     ported/unauthorized charges.

     Therefore, this recommendation remains resolved and open, pending receipt and review of the
     revised manual.

     Management’s Response:

     OASAM concurs with this recommendation and has implemented procedures to ensure
     compliance with it. Revocation of credit cards as a result of missing statements or documenta-
     tion is an option to all program officials who have oversight of their credit card programs, not
     just to BLS and ETA. Additional guidelines for when such revocation is advised will be
     incorporated into the revised Procedure Manual. The Department has approximately 1600
     cardholders. Due to limited resources needed to conduct such reviews DOL-wide, the
     Procurement Executive will issue an Approving Official's Self Certification Checklist for use by
     agency approving officials to promote compliance. In addition, survey questions will be sent to
     these officials and responses used as an indicator of the need for additional technical assistance.
     Moreover, these procedures already exist in the current version of the credit card procedure
     manual on page ten under the heading “Supporting Documentation.” Upon discovery that there
     is insufficient documentation, servicing finance offices normally pursue the additional
     documentation, and advise approving officials and/or AOPCs of any persistent problems. This
     is also an item which is reviewed by this office when procurement reviews are conducted (see the
     manual entitled Procedures for Use of Credit Cards for Micro-Purchases). Where additional
     guidance is needed, interim policy guidance may be issued by the Procurement Executive to
     ensure that cardholders are fully advised of Departmental policy regarding documentation.

     OIG Conclusion:

     Management is addressing this recommendation in its proposed corrective action. Therefore, this
     recommendation remains resolved and open pending review of the corrective action implementa-
     tion during the FY 2002 audit.


 •   Ensure that cardholders, approving officials, and other financial management and
     procurement staff are trained in the Department’s credit card use procedures and in their
     respective responsibilities.

     OASAM indicated they will conduct training in the use of the CitiDirect system and will survey
     the agencies to assess their need for training. A few agencies have begun training

     their cardholders (notably BLS and OSHA); however, we are not aware of any Department-wide
     training. Therefore, this recommendation remains resolved and open pending review of the
     corrective action.




OIG Report No. 22-02-004-13-001                                                                 Page 56
                                          CFO FINDINGS AND RECOMMENDATIONS
     Management’s Response:

     Although OASAM does not provide training to all Departmental offices, we have identified
     recommended sources of training, and have provided this information to credit card coordinators
     from all agencies. Many of the individual DOL agencies provide their own training. In
     addition, appropriate OASAM staff are available to provide technical assistance. We will assess
     the effectiveness of the agencies’ training during the conduct of procurement management
     reviews.

     OIG Conclusion:

     We will review OASAM’s training assessments and guidance during our FY 2002 audit. This
     recommendation is resolved and open, pending completion of our review.


     In FY 1999, we recommended that the Chief Financial Officer, as well as the Commissioner of
     the Bureau of Labor Statistics, the Assistant Secretary for Employment and Training, and the
     Assistant Secretary for Occupational Safety and Health:

 •   Ensure that the cardholders, approving officials, finance office, and procurement office staff
     adhere to requirements in the Procedures for Use of Credit Cards for Micro-Purchases
     (Revised May 17, 1999) regarding the timely submission of monthly cardholder statements
     and the inclusion and review of supporting documentation.

     During FY 2001, BLS provided training to cardholders and more aggressively pursued missing
     statements and documentation. In addition, we noted significant improvement in the quality of
     the documentation. Although BLS has made significant improvement, 5 of the 127 statements in
     our sample for May and July 2001 were not available from the finance office at the time of our
     fieldwork in October. All five of these statements were subsequently provided to us. In addition,
     two of these five were for the same cardholder in May and July. Therefore, with respect to BLS,
     this issue remains resolved and open.

     In ETA, we tested a sample of 24 statements for May and July (12 each month). Eight of these
     statements were not available at the time of our fieldwork in October. Six of these eight
     statements were subsequently provided to us. The two statements which are still missing were
     for the same cardholder for May and July. In addition, 1 of the 24 statements lacked adequate
     supporting documentation. We are unable to determine the propriety of the transactions on the
     missing statements or the unsupported transactions. Because of these significant problems, with
     respect to ETA, this issue is now unresolved.

     In OSHA, we tested a sample of 33 statements for May and July 2001. Two of the 33
     statements were not available at the time of our fieldwork in October. One of these two was
     subsequently provided to us. In addition, 4 of the 33 statements lacked adequate documentation
     (2 of these 4 are the same cardholder). Although OSHA has provided an extensive

     cardholder training and emphasized the importance of documentation, because these weaknesses
     still exist, this recommendation remains resolved and open.




OIG Report No. 22-02-004-13-001                                                              Page 57
                                           CFO FINDINGS AND RECOMMENDATIONS
     According to the Procedures for Use of Credit Cards for Micro-Purchases, credit card
     statements are to be turned into the respective finance office within 14 days of receipt by the
     cardholder. The procedures manual also specifies certain remedies available to the approving
     officials and procurement offices, including confiscation of the cards. It is not clear why the
     cards for these cardholders, who did not submit their statements timely or at all, were not
     confiscated.

     Management’s Response:

     OASAM Response: OASAM concurs with this recommendation and has implemented
     procedures to ensure compliance. Procedures regarding the timely submission of monthly
     cardholder statements and the inclusion and review of supporting documentation will be included
     as part of the aforementioned Approving Official's Self-Certification Checklist. We will assess
     its effectiveness during the conduct of procurement management reviews.

     BLS Response: BLS has taken appropriate action to ensure compliance with DOL policy
     regarding the timely submission of monthly cardholder statements and the inclusion and review
     of supporting documentation.

     BLS reduced the purchase limits of all BLS cardholders to $1 at the beginning of FY 2001 and
     these limits were not raised until the individual cardholders attended a training session on the use
     of the purchase cards and their individual responsibilities. Cardholders signed a statement that
     they attended this training and understood their responsibilities, including requirements for timely
     submission and supporting documentation. New cardholders during the year were provided one-
     on-one training on the use of the purchase cards and their individual responsibilities and signed a
     statement that they received training and understood their responsibilities.

     The BLS procurement staff rigorously followed up with cardholders and their approving officials
     in order to ensure that all statements were received in a timely manner and included the required
     supporting documentation. These steps resulted in a significant improvement in the timeliness of
     the statement submissions and a tremendous increase in the quality of the supporting documenta-
     tion.

     BLS continued its policy of revoking or suspending cardholder privileges for failure to comply
     with DOL policy. Close monitoring of cardholder usage by the procurement staff indicated that
     there were no cases that warranted revoking or suspending cardholder privileges during FY
     2001. This improvement is a direct reflection of the training provided to cardholders and the
     comprehensive review by the procurement staff.

     To further ensure that cardholders and approving officials submit statements on time, BLS will
     suspend the cardholder’s privileges if the statement has not been submitted to the procurement
     staff by the 28th of the month or if documentation is not adequate.

     ETA Response: The ETA did require all cardholders to attend training last January where the
     regulations and procedures were explained to them. New cardholders are now required to take
     the on-line GSA purchase card course and hand in their completion certificate with their
     application.




OIG Report No. 22-02-004-13-001                                                                 Page 58
                                          CFO FINDINGS AND RECOMMENDATIONS
     A concerted effort has been made, through vigilant tracking and card cancellations, to get
     monthly cardholder statements with the supporting documentation into the Office of Financial
     and Administrative Services in a timely manner. These efforts have been hampered recently by
     delivery problems of the cardholder statements through the USPS due to the mail processing
     issues in the Washington area. The missing statements in the audit were due to a cardholder who
     went on extended sick leave and then resigned, and we are attempting to resolve the issues with
     his statement.

     We believe that ETA has made substantial progress in the management of its purchase card
     program and we will continue to work to improve it.

     OSHA Response: OSHA plans to continue cardholder training. OSHA began using the
     CitiDirect system in 2002.

     OIG Conclusion:

     Based on BLS’ and OSHA’s proposed corrective actions, this recommendation remains resolved
     and open pending our review of corrective action implementation in the FY 2002 audit.

     ETA has not adequately identified steps to be taken to ensure that cardholders submit statements
     and documentation in a timely manner. Therefore, this issue is unresolved with respect to ETA,
     pending receipt of an adequate corrective action plan.


     Updating the DLMS

     Some sections of the DLMS pertaining to procurement have not been updated since 1976.
     Certain changes have been handled as memoranda to the agencies, but most have not been
     formalized into the DLMS, which is the official policy manual for the Department. Since the
     DLMS has not been updated, there is insufficient and inadequate documentation of departmental
     procurement policies and procedures, which has resulted in inconsistent implementation of the
     procurement requirements in the FAR.

     In the FY 1998 management advisory report (OIG Report No. 12-99-009-13-001), we
     recommended that the Chief Financial Officer and the Assistant Secretary for Administration and
     Management:

 •   Ensure that the DLMS is updated to reflect recent changes in procurement law and establish
     procedures to identify changes in the law and update the DLMS timely.

     The Department is working to update the Department of Labor Acquisition Regulation first and
     it plans to complete the revision to the DLMS in the first quarter of 2002. Therefore, this
     recommendation is resolved and open, pending review of the corrective action during our FY
     2002 audit.




OIG Report No. 22-02-004-13-001                                                              Page 59
                                               CFO FINDINGS AND RECOMMENDATIONS
         Management’s Response:

         The aforementioned DLMS has been revised, all comments resolved and will published by April
         1, 2002.

         OIG Conclusion:

         This recommendation is resolved and open, pending our receipt and review of the revised
         DLMS.



8.       Black Lung Disability Trust Fund
         Status of Prior Year Findings and Recommendations

         Lack of Detailed Reconciliation of the Statement of Differences

         The FY 1999 DOL Management Advisory Comments (Report No. 12-00-006-11-001) made two
         recommendations concerning the lack of reconciliation of the Statement of Differences received
         from Treasury.

         We recommended that the Chief Financial Officer and the Assistant Secretary for
         Employment Standards ensure that the Division of Coal Mine Workers’ Compensation:

     •   develop policies and procedures for the reconciliation of the Fund Balance with Treasury;
         and

     •   document the reconciliations and subsequent supervisory review of the reconciliations.

         During FY 2001, DCMWC issued a memo documenting policies and procedures for the
         reconciliation of the Fund Balance with Treasury. The first recommendation is closed.

         During FY 2001, DCMWC began the process of performing monthly reconciliations of the TFS-
         6652, Statement of Differences. However, the reconciliations were not documented nor were
         they prepared timely. The second recommendation is resolved and open. DCMWC must
         develop a standard reconciliation template, list each reconciling item, attach the supporting
         documentation, and complete this work in a timely manner so that the reconciliation can be used
         when preparing the next SF-224.

         Management’s Response:

         The Treasury Department has undergone substantial changes in the way it records and furnishes
         data to its customer agencies in the past two years. Most of this data is retrieved from an on-line
         database to be matched to paper documents. The accounting staff works with the knowledge that
         all documents are not available at a given point in time, such as when a SF224 is prepared. This
         fact may contribute to a perception that documentation is not complete or timely. Nevertheless
         during the current fiscal year the accounting staff will work to perfect documentation, including a
         template if appropriate, that will facilitate audit of the reconciliation process.


 OIG Report No. 22-02-004-13-001                                                                   Page 60
                                           CFO FINDINGS AND RECOMMENDATIONS
     OIG Conclusion:

     The second recommendation remains resolved and open. Closure is dependent on DCMWC
     adequately documenting and timely preparing the reconciliation of the Fund Balance with
     Treasury.


     Suspense Account in Black Lung Accounting System (BLAS)

     The FY 1998 Management Advisory Comments (Report No. 12-99-009-013-001) reported that
     the Black Lung Accounting System (BLAS) had a suspense account with a balance of
     approximately $7.5 million as of September 30, 1998. Many amounts in the suspense account
     relate to complex bankruptcy issues or repayment of funds embezzled by former employees. The
     account also contains unresolved cash receipts dating back to 1985. Because of this situation,
     individual accounts receivable in BLAS do not always reflect the correct balance. The report
     made recommendations regarding resolving the outstanding suspense account items which have
     been restated as follows:

 •   The Chief Financial Officer and the Assistant Secretary for Employment Standards ensure
     that the suspense account is substantially cleared and procedures developed to ensure it
     remains only a temporary clearinghouse for unidentified receipts. Procedures should
     include the following:

     -       Research and resolve the amounts in the suspense account which have been
             outstanding for more than one year, beginning with the amounts in the account for
             the longest period of time, i.e., starting with 1985 amounts.

     -       Implement a policy and procedure which requires that items temporarily placed in
             the suspense account be resolved within a prescribed timeframe which should not be
             longer than one year.

     The balance of the suspense account declined in FY 1999 and FY 2000 but increased slightly
     during FY 2001. Although the balance in the suspense account has been reduced substantially
     (from $7.5 million in FY 1998 to $1.7 million in FY 2001), the amount attributed to medical
     providers needs to be resolved and applied to proper accounts receivable. Additionally, an
     accounting solution has not been developed for non-claimant related monies that belong to the
     BLDTF (repayment of embezzled monies.) This recommendation is resolved and open.
     Closure is dependent on the implementation of the recommendation which will be reviewed
     during the FY 2002 audit.

     Management’s Response:

     The recommendation to limit residence in the suspense file to one year for unresolved medical
     bills is not acceptable as it is not in the best interest of program operations. Program experience
     has shown that some of these accounts resolve over time and in excess of one year as errors
     become evident to providers. A time limit between three to five years will be considered to be
     applied to the older accounts cited in the recommendation. Medical bills do not suspend when
     “proper” accounts receivable exist, any further reductions in the suspense file are being
     addressed as workload permits.

OIG Report No. 22-02-004-13-001                                                                 Page 61
                                          CFO FINDINGS AND RECOMMENDATIONS
     Accounting solutions to the management of non-claimant related monies (such as restitution)
     have been rejected to date because they compromise internal control mechanisms disproportion-
     ate to their value in managing these monies. The limited activities in this category have allowed
     the Chief of Accounting to successfully reallocate funds from suspense to appropriate accounts.
     These accounts are available for audit. A significant increase in the number of accounts in this
     category would prompt reconsideration of the issue.

     The program’s primary consideration in managing the suspense file will continue to be its
     usefulness to program operations. Any significant increases will be monitored in view of that
     consideration and adjustments made if necessary.

     OIG Conclusion:

     OIG recognizes DCMWCs efforts to research and resolve suspense items resulting in a reduction
     in the suspense account from $7.5 million to $1.7 million. However, because DCMWC has not
     established a policy or procedure which would preclude the suspense account from increasing
     due to long outstanding items in the future, this recommendation is unresolved. Resolution is
     dependent on the establishment of policies and procedures which requires that items in the
     suspense account be resolved within a reasonable period of time (such as one to two years). This
     policy should require that DCMWC take a proactive role in determining the sources of the items
     remaining in the suspense account in order to resolve these items. DCMWC's proactive role
     would preclude the need to wait an unreasonable amount of time for the providers or other
     sources to contact them to provide information to resolve these items.


     Allowance for Bad Debts

     The FY 1998 DOL Management Advisory Comments (Report No. 12-99-009-13-001) reported
     that the allowance for bad debts was understated by approximately $2,400,000. Program
     policies, accounting systems support and availability of information are all factors which are
     responsible for this understatement or hinder the development of proper estimates. The report
     made recommendations which have been restated as follows:

 •   DCMWC should ensure that historical data (percentage of receivables collected) is used to
     calculate the allowance for bad debts account balance for the three types of accounts
     (medical provider, RMO, and claimant); and

 •   DCMWC should ensure that a benchmark is developed to define an uncollectible account,
     such as the account’s aging (for example, 1 or 2 years without any collections) and ensure
     the subsequent write-off of the account, especially for medical providers.

     In FY 2001, there was no progress on these findings. These recommendations are unresolved.
     To resolve these recommendations, DCMWC must develop a corrective action plan, including
     time frames, to implement policies and procedures which ensure that the

     computation of the Allowance for Doubtful Accounts is based on historical data, by account type
     and a benchmark is developed to define an uncollectible account.




OIG Report No. 22-02-004-13-001                                                                Page 62
                                          CFO FINDINGS AND RECOMMENDATIONS
     Management’s Response:

     DCMWC is using the Department’s guidelines that refer to the Federal Accounting Standards
     Advisory Board (FASAB) standards to develop allowances based on two years of experience for
     claimants, responsible operators, and providers. The new allowances are being developed now
     and will be applied at least by the 4th quarter of FY 2002 and adjusted when necessary.

     The recommendation to define a medical provider account as “not collectible” based on its age
     will be considered after completion of a planned clean-up of aged accounts, targeted for
     completion by the 1st quarter of FY 2003. The presence of these older accounts would distort
     such an analysis at this time.

     OIG Conclusion:

     This recommendation remains unresolved. Resolution is dependent upon DCMWC implement-
     ing FASAB’s standards for allowances and the computation of the allowance for bad debts,
     which will be reviewed during the 2002 fiscal year audit.


     Incorrect Recording of Responsible Mine Operators (RMO) Accounts Receivable

     The FY 1998 DOL Management Advisory Comments (Report No. 12-99-009-13-001) reported
     that claims examiners establish RMO accounts receivable before a final decision and order are
     issued, and that in some cases accounts receivable are incorrectly computed. The recommenda-
     tion has been restated as follows:

 •   DCMWC should ensure that RMO accounts receivable that are in litigation are identified as
     such on the automated system since collection action is suspended during this period. This
     will facilitate a more accurate calculation of the allowance account so that accounts
     receivable are shown in the financial statements at net realizable value.

     During FY 2001 the client/server environment was implemented. However, the system does not
     contain the necessary codes to produce a listing which identifies the accounts receivable which
     are in litigation. The recommendation is resolved and open. Closure is dependent upon the
     change to the system to add a code which will allow a report to be generated of all accounts
     receivable in litigation.

     Management’s Response:

     It is now possible to make the recommended change to the data system and specifications are
     being developed by DCMWC staff to implement this recommendation.

     OIG Conclusion:

     This recommendation remains resolved and open. Closure is dependent on DCMWC making
     the changes to the data system to add a code which will allow a report to be generated of all
     accounts receivable in litigation.




OIG Report No. 22-02-004-13-001                                                              Page 63
                                          CFO FINDINGS AND RECOMMENDATIONS
     Inaccurate RMO Accounts Receivable Balances

     The FY 1999 DOL Management Advisory Comments (Report No. 12-00-006-16-001) made
     recommendations concerning RMO Accounts Receivable Balances sent to the Solicitor’s Office.
     These accounts often remain at the Solicitor’s Office for extended periods of time but are not
     updated as appropriate while there. We have restated these recommendations as follows:

 •   DCMWC should maintain a perpetual inventory of RMO accounts receivable forwarded to
     the Solicitor’s Office and perform a physical inventory of case files once a year;

 •   DCMWC should update each account receivable no less frequently than once a year for
     disability benefits and medical bills paid since the account was last updated; and,

 •   DCMWC should ensure that interest is recorded on cases at the Solicitor’s Office only after
     the principal has been paid in accordance with BLBM policy.

     During FY 2001, DCMWC prepared a listing of responsible mine operator (RMO) accounts
     receivable at the Solicitor’s Office for enforcement. Three of the 14 accounts receivable tested
     did not contain a tracking code that indicated the case was at the Solicitor’s Office. Nine of the
     14 accounts tested needed to be updated; only two were updated. Neither of the two was updated
     correctly. Five of the 14 accounts tested had zero account balances but were at the Solicitor’s
     Office. One of the 14 accounts tested had interest accruing on the account since 1992 which is
     contrary to BLBM policy.

     These three recommendations have not been fully implemented and are resolved and open.
     Closure is dependent upon the results of the FY 2002 audit.

     Management’s Response:

     Although DCMWC contested some of the test results in 2001, the cases submitted to the
     Solicitor’s office for enforcement are being monitored by the Chief of the Enforcement Section,
     cataloged and updated as necessary. These cases are being reviewed routinely, at least annually,
     to verify accounts receivable. Enforcement Section staff will update the accounts receivable
     record to reflect the benefits paid as shown on the benefit screen.

     The claims examiners will note reasons for a zero account balance when they are encountered to
     inform and assist the auditor.

     OIG Conclusion:

     These three recommendations have not been fully implemented and are resolved and open.
     Closure is dependent upon the results of the FY 2002 audit.


     Assessing Interest on Accounts Receivable Due from Bankrupt Entities

     The FY 1998 DOL Management Advisory Comments (Report No. 12-99-009-13-001) reported
     that interest was being accrued on accounts receivable of 12 bankrupt RMOs. This


OIG Report No. 22-02-004-13-001                                                               Page 64
                                              CFO FINDINGS AND RECOMMENDATIONS
         practice overstated accounts receivable. The report made recommendations which have been
         restated as follows:

     •   DCMWC should ensure, if interest is assessed on accounts of bankrupt RMOs, that the
         assessment of interest is proper.

         During FY 2001, interest of $25,979 was assessed on the accounts of three bankrupt RMOs. At
         fiscal year end, the total interest which had been assessed since bankruptcy for all bankrupt
         RMOs was $417,404. In general, interest assessed after bankruptcy is uncollectible. However,
         exceptions may apply and each account must be researched to determine whether the interest
         assessed was proper. This recommendation remains resolved and open. Closure is dependent
         upon DCMWC review of the interest assessed on the RMO accounts since bankruptcy and the
         subsequent write-off of any improper interest.

         Management’s Response:

         The chief of the accounting section wrote off improper interest on accounts for bankrupt RMOs.

         OIG Conclusion:

         This recommendation remains resolved and open. Closure is dependent upon review of the
         interest amounts written off for the bankrupt RMOs which will be conducted during the FY 2002
         audit.

9.       Fines and Penalties
         Status of Prior Year Finding and Recommendation

         Incorrect Dates Used for Recording Revenues

         In our FY 1999 audit (OIG Report Number 12-00-003-13-001), we reported that PWBA did not
         record revenue transactions as of the date that a legally enforceable claim was established. The
         Office of Program Planning, Evaluation and Management (OPPEM) records penalties (revenue)
         using the date that the plan administrator is sent written notification that a penalty has become
         final (Notice of Penalty Assessment). The date on this correspondence is also used to determine
         the cutoff for accounting purposes, rather than the date that the grace period expired and a valid
         claim was established. For example, if the grace period expired in September 1999, but the plan
         administrator is not notified of the final penalty until October or November, revenue is not
         recorded in FY 1999. We made the following recommendation:

     •   We recommended that the Chief Financial Officer ensures that PWBA revenues are
         recorded and recognized for financial statement purposes in accordance with the effective
         dates established by the Regulations and FASAB requirements. Revenues should be
         recorded to the correct fiscal year using the date the claim becomes enforceable rather than
         the correspondence date listed on the final notification. In cases referred to an ALJ, the
         revenue should be recorded to the correct fiscal year using the date of the ALJ decision.




 OIG Report No. 22-02-004-13-001                                                                   Page 65
                                           CFO FINDINGS AND RECOMMENDATIONS
      PWBA has requested a Regulatory Review to be done by the Office of the Solicitor to determine
      whether any changes to the Code of Federal Regulations are needed in order to clarify the date of
      the Final Order. To date, a Solicitor’s opinion has not been issued. This recommendation
      remains resolved and open pending the outcome of the Solicitor’s opinion.

      Management’s Response:

      PWBA requested a legal opinion from the Office of the Solicitor’s Pension Benefits Security
      Division (PBSD) on the ERISA 502(c)(2) regulation in question. The crux of the issue is
      whether a Notice of Intent to Assess a Penalty (NOI) is a self-effectuating final order at the
      expiration of the allowable time for filing an administrative appeal thereby creating a legally
      enforceable claim for revenue recognition purposes. PWBA has not yet received a written
      response from PBSD; however, based on discussions we have had with appropriate officials, it
      appears that PBSD is leaning toward affirmation of the OIG’s interpretation of the relevant
      ERISA 502(c)(2) regulatory provision.

      In an effort to avoid further delay in achieving compliance and closing this FY 1999 condition in
      the MAC, PWBA is revising its internal operating procedures to generally recognize revenues
      arising from ERISA 502(c)(2) civil penalties 30 days (rather than the current practice of 60
      days) after the date that the NOI is issued. However, during this revised 30-day window, as
      circumstances warrant (e.g. notification of filing for an appeal, receipt of a Statement of
      Reasonable Cause, etc.), PWBA’s Office of the Chief Accountant may take alternative courses
      of action that may eventually result in a withdrawal of an NOI or the issuance of a Notice of
      Determination (NOD). Where an NOD is involved, the determination generally becomes a final
      order 30 days after the date of issuance to allow for possible appeals. Absent the receipt of a
      notification for appeal, the NOD becomes a “final order” 30 days after the date of issuance of
      that NOD for revenue recognition purposes.

      We are confident that this modification to the agency’s 502(c)(2) procedures, which is consistent
      with the OIG’s interpretation of the underlying regulations, will close the FY 1999 audit
      condition on this issue.

      OIG Conclusion:

      We concur with the proposed changes discussed by management. This recommendation remains
      resolved and open pending our review of the policy changes implemented by management
      during the FY 2002 audit.


10.   Miscellaneous Revenues
      Status of Prior Year Finding and Recommendation

      Working Capital Fund Allocations

      Our FY 1999 audit (OIG Report Number 12-00-006-13-001) reported that the method used to
      allocate object class No. 2507, Forms and Publications, does not allocate expenses incurred on
      an appropriate basis. We made the following recommendation:


 OIG Report No. 22-02-004-13-001                                                               Page 66
                                           CFO FINDINGS AND RECOMMENDATIONS
  •   We recommended that the Chief Financial Officer ensures that a method is developed for
      allocating forms and publication costs which provides an equitable allocation of such costs
      based on actual usage.


      The Department indicated it had not performed work on this in FY 2001, but it will address this
      issue during its FY 2002 pricing review. Therefore, this recommendation remains unresolved.

      Management’s Response:

      Management has no further comments.


11.   Performance Measures
      Status of Prior Year Findings and Recommendations

      The following prior year audit recommendations were issued in the cited audit reports directly to
      the appropriate Assistant Secretary. We request that the CFO work with the respective Assistant
      Secretaries to address these recommendations.

      Unemployment Trust Fund

      Four recommendations are resolved and open from OIG Report No. 03-93-034-03-315, and one
      recommendation is resolved and open from OIG Report No. 03-95-011-03-315. The open
      recommendations and current status are as follows:

  •   The total amount of claimant overpayments outstanding at the beginning of the fiscal year
      plus the amount of overpayments established and recovered during the fiscal year should be
      included as a baseline measurement.

  •   UIS should include the . . . payment accuracy rate . . . by including denials in the BQC
      sample and reporting the overpayment and underpayment rates for the payment accuracy
      rate.

  •   UIS should initiate quality control programs to measure the accuracy of denied initial claim
      determinations and report the results and associated underpayments in the financial
      overview.

      With the implementation of the Benefit Accuracy Measurement (BAM) program, management
      initiated action to collect overpayment and underpayment information, and subsequently review
      this data in their quality control process (BAM). The current GPRA measure utilizes a broad-
      based approach and states “Unemployed workers receive fair unemployment insurance benefit
      eligibility determinations and timely benefit payments.” These recommendations remain
      resolved and open. OIG will review the current measure to ensure that overpayments,
      underpayments, and denied claims are all considered as part of the measure during the FY 2002
      audit.




 OIG Report No. 22-02-004-13-001                                                              Page 67
                                           CFO FINDINGS AND RECOMMENDATIONS
     Management’s Response:

     The ETA, Office of Workforce Security (OWS) believes that although these data are readily
     available from the ETA 227 report, they would be of marginal value. In particular,
     overpayments outstanding at the beginning of the period include many overpayments established
     in previous periods that states cannot write off, even though they know they have no chance of
     recovering. This gives an exaggerated picture of potentially recoverable overpayments.

     In August 2001 all States began including denied claims in their Benefit Accuracy Measurement
     program. Sufficient cases will have been drawn to include a measurement of denied claims
     accuracy in reports for FY 2002 and thus to provide a more complete measurement of
     underpayments in payment accuracy. The denials accuracy measure is based on the number of
     claims denied at three stages of the UI claims process – the determinations of the claimant’s
     monetary, separation, and non-separation eligibility. ETA plans to publish the percentages of
     proper and improper denial determinations issued by state workforce agencies for each of these
     three eligibility categories. Because denial determinations--rather than benefits paid--constitute
     the universe for the denials accuracy measure, methodologically acceptable imputations of
     benefit amounts that were not paid due to erroneous denial determinations cannot be developed.

     OIG Conclusion:

     These recommendations remain resolved and open. OIG will evaluate OWS’ measures
     pertaining to payment accuracy and denied claims during the FY 2002 audit.


 •   UIS should review validation methods for all other data elements contained on the ...
     Unemployment Insurance Required Reports.

     The data validation system OWS has developed will validate half of the roughly 2,400 data
     elements states report on 43 UI required reports. The plans for implementing this system have
     been approved and implementation is scheduled throughout FY 2002. However, the UIDV only
     validates that information in the states’ systems are properly reported to OWS. Verification of
     state data to source documents is performed by the states. This recommendation remains
     resolved and open. OIG will review controls over data verification of states’ data during FY
     2002.



     Management’s Response:

     In December 2001, OWS received clearance to implement the UI Data Validation system
     nationwide. At this point, about one third of the states have been trained in the system and are
     implementing it. The target for complete implementation, including a complete first validation, is
     July 2003.




OIG Report No. 22-02-004-13-001                                                                Page 68
                                          CFO FINDINGS AND RECOMMENDATIONS
     OIG Conclusion:

     This recommendation remains resolved and open. UIDV implementation will not be completed
     until FY 2003. Once the data element validation process has become operational, management
     must reassess their approach to determine whether desired results were achieved. Once this
     reassessment has occurred, management should realistically determine the feasibility of including
     those data elements previously excluded from the UIDV program. Since all data elements used in
     official Department of Labor reports are important, this issue can only be closed after measures
     are taken to validate all data elements used in the Federal reporting process.


 •   UIS should increase the period being validated from one month for quantity and one quarter
     for quality to an entire year.

     At this time, OWS management has not increased the validation period to an entire year.
     Management has undertaken an initiative to standardize approximately 2,400 data elements.
     Currently, they validate one month’s or quarter’s data using both quantity and quality validation.
     This is to ensure that the validations can be accomplished at reasonable cost. A three state pilot
     test was completed in 1998 to assess the feasibility and costs associated with standardizing and
     validating the 2,400 unemployment insurance required reporting data elements. Extending the
     validation period should only marginally increase costs once programming is completed to create
     an automated environment (that is not manpower intensive). States can then be encouraged to
     validate additional quarters and compare results with completed quarters. This issue remains
     resolved and open. The UIDV system must be fully implemented and the validation period
     increased to close this recommendation.

     Management’s Response:

     Until all states have fully implemented the UI DV program, and the true costs of conducting a
     continuing validation are known, OWS is not in a position to judge whether increasing the
     amount of data validated for quantity and quality validation are cost effective. Because most
     reporting problems are systemic--due to improper computer coding or misinterpreted reporting
     definitions—correction of the errors identified by examination of a month’s worth of data will
     result in proper reporting in the future and more extensive validations are unnecessary.
     Expanding the extent of data validated in dynamic databases can also make it more difficult to
     match up the data used to create an original report and used to conduct the quantity validation
     (which is done by reconstructing the count, at a later date.)

     OIG Conclusion:

     This recommendation remains resolved and open. Since OWS has not committed to increase
     the periods being evaluated, this issue is unresolved pending OWS’ evaluation of UIVD
     implementation costs. Once these costs are known, an evaluation can be performed to determine
     the cost efficiency of increasing the validation period. The UIDV system must be fully
     implemented and the validation period increased to close this recommendation.




OIG Report No. 22-02-004-13-001                                                                Page 69
                                           CFO FINDINGS AND RECOMMENDATIONS
     Occupational Safety and Health Administration (OSHA)

     In OIG Report No.05-95-003-10-001, one recommendation remains resolved and open.

 •   We recommended that OSHA continue development of meaningful and relevant measures of
     OSHA’s performance that can be linked to program costs. We also recommended that
     OSHA ensure its proposed systems that gather injury and illness data directly from
     employers contain specific controls that address completeness and accuracy.

     During FY 2000, OSHA participated in a pilot project conducted jointly by the OCFO and a
     contractor to apply cost accounting principles to the activities of the Voluntary Protection
     Program. This pilot was an initial step toward recognizing and understanding the problems and
     opportunities involved in implementing a cost accounting system. OSHA has not developed the
     capacity to consolidate data from a variety of financial and other system sources to link financial
     data to performance measures. OSHA is limited by the current agency and departmental
     financial and personnel systems and their incompatibility. OSHA remains committed to
     developing a cost accounting approach and system that will more accurately track program costs
     against program activities.

     The OSHA Data Initiative (ODI) database contains various edit checks, and requires that
     employers be contacted to correct any deficient data. In FY 1998, OSHA began conducting
     annual onsite audits of the injury and illness records of a random selection of employers
     participating in the ODI to determine the accuracy and reliability of the OSHA 2000 logs, the
     source of data for the ODI, and the BLS Annual Survey. OSHA’s Integrated Management
     Information System (IMIS) uses several methods of data validation, including: comparison with
     previous IMIS data and other reliable sources; daily edit checks; required field office review of
     significant and egregious cases; corporate settlements and other selected cases; instructions in
     citation letters on how to review OSHA inspection data on the Internet; and, instructions for
     employers and workers on how to correct information they believe to be incorrect.

     Management’s Response:

     In accordance with OSHA’s revised strategic and annual performance plans, the agency will
     establish new performance goals for FY 2003. These will include reducing three of the most
     significant types of workplace injuries and causes of illnesses by fifteen percent annually,
     reducing injuries and illnesses by ten percent annually in four industries characterized by high-
     hazard workplaces, and reducing fatalities in construction by 15 percent from the baseline.
     OSHA will continue to assess its progress toward its FY 2002 goals. Based on the most current
     data available, most of the prior-year goals established in the strategic and annual performance
     plans have been achieved. The upcoming transition to the North American Industry Classifica-
     tion System (NAICS) will require OSHA to modify virtually all of industry and establishment
     performance goals. OSHA will continue to work with OCFO to apply managerial cost
     accounting to its programs.

     OSHA will continue to audit the injury and illness records of approximately 250 establishments
     each year to ensure the quality of the establishment-specific data collected as part of the OSHA
     Data Initiative (ODI) and used to target programmed inspections. Other data validation efforts
     will be expanded, as OSHA enhances its system capabilities, collects data for new program areas
     and goals, and addresses the timeliness of data reporting.

OIG Report No. 22-02-004-13-001                                                                 Page 70
                                          CFO FINDINGS AND RECOMMENDATIONS
     OIG Conclusion:

     The recommendation to link performance measures with program costs remains resolved
     and open. To close this recommendation, OSHA and the OCFO should implement Managerial
     Cost Accounting and match costs with results. OSHA explains how new goals will emerge in FY
     2003, however, this issue relates to linking performance measures to cost. Our FY 2003 audit
     will evaluate whether new goals were linked to a new cost accounting process to match costs
     with results.

     The recommendation to ensure completeness and accuracy of Illness and Injury data remains
     resolved and open. OIG will review newly implemented OSHA controls over injury and illness
     data collection during our FY 2002 audit. Upon validation these controls were implemented, this
     issue can be closed.


     For OIG Report No. 05-93-006-10-001, one recommendation remains resolved and open.

 •   We recommended that OSHA implement a program to monitor the quality of employer injury
     and illness records and undertake a broader review than was previously conducted.

     OSHA’s revised record keeping regulation was published in the Federal Register on
     January 19, 2001. The revised rule, which replaces requirements implemented in 1971, will
     produce better information about occupational injuries and illnesses, while simplifying the record
     keeping system for employers and protecting the privacy of employees. The rule combines
     previous regulatory requirements and interpretations into one document for greater clarity. If
     approved by the new Administration, the final rule will become effective on

     January 2002. OSHA’s quality control program will continue to include an information and
     outreach program on the new record keeping guidelines.

     Management’s Response:

     Most provisions of OSHA’s revised recordkeeping regulation became effective on January 1,
     2002. The effective date of provisions dealing with work-related hearing loss and
     musculoskeletal disorders have been delayed until January 1, 2003. The rule increases employee
     involvement, creates simpler forms and gives employers more flexibility to use computers to
     meet OSHA regulatory requirements. The agency is carrying out a major outreach effort to help
     employers and workers understand the changes and to provide assistance in complying with the
     requirements. A page on OSHA’s web site highlights new provisions, changes and training
     programs.

     OIG Conclusion:

     This recommendation remains resolved and open, closure is dependant upon our review of the
     revised guidance relating to record keeping and determine the progress of OSHA’s monitoring of
     the quality of employer injury and illness records.




OIG Report No. 22-02-004-13-001                                                               Page 71
                                           CFO FINDINGS AND RECOMMENDATIONS
      Employment Standards Administration, Wage and Hour Division

      In OIG Report No. 12-96-011-04-420, one recommendation remains resolved and open.

  •   CMP collections be matched against their respective assessments so that a more accurate
      collection rate can be established.

      During FY 2000, Wage and Hour revamped its CMP tracking system which tracks CMP
      assessments and collections on a case-by-case basis. This system should match collections with
      the corresponding assessments for a more accurate collection rate. CMP 2001 became fully
      operational in October 2001.

      Management’s Response:

      The “revamped” CMP 2001 system that went on line on October 22nd resulted in improvements
      in system functionality and reporting. However, the CMP tracking system has had the ability to
      accurately and completely match collections with the corresponding assessments for every case
      assessed since June, 1997. The system tracks information about individual case records including
      (1) assessed amount, (2) post-assessment adjustments, (3) original receivables, (4) subsequent
      interest, penalties or other charges and (5) all payments and write-offs. The system has been able
      to establish accurate collection rates since FY 1998.

      The CMP system which was the system of record as of September 30, 2001 fully addressed the
      OIG recommendation. Accordingly, we believe that this recommendation should be resolved and
      closed.

      OIG Conclusion:

      This recommendation remains resolved and open closure is dependant upon our review of the
      full implementation of the system including validation of the “revamped” system’s accuracy and
      integrity.


12.   Debt Management
      Status of Prior Year Finding and Recommendation

      Noncompliance with the Debt Collection Improvement Act of 1996

      In our FY 1998 audit (OIG Report No. 12-99-002-13-001), we reported that eight Department
      of Labor agencies or programs did not submit all receivables that have been delinquent for a
      period of 180 days to the Department of the Treasury. The Debt Collection Improvement Act of
      1996 (DCIA) provides that any non-tax debt or claim owed to the United States that has been
      delinquent for a period of 180 days or greater be turned over to Treasury for appropriate action
      to collect or terminate collection actions on the debt or claim. We made the following
      recommendation:




 OIG Report No. 22-02-004-13-001                                                               Page 72
                                          CFO FINDINGS AND RECOMMENDATIONS
 •   We recommended that the Acting Chief Financial Officer ensures that receivable cases
     presently over 180 days delinquent are submitted to the Department of the Treasury to bring
     the Department of Labor into substantial compliance with the DCIA.

     In FY 2001, the Department continued to improve compliance with the DCIA. Only one agency
     is not in substantial compliance, as follows:

     S       ESA’s Wage and Hour Division currently does not have a process in place to transfer
             delinquent back wage accounts receivable to Treasury. As of September 30, 2001, the
             accounts receivable system reflected 70 accounts totaling $1.26 million which were
             eligible for transfer, but had not yet been sent to Treasury.

     S       ESA’s Black Lung Disability Trust Fund (BLDTF) does not submit cases to Treasury
             on a timely basis for their medical provider accounts. Although management imple-
             mented a new reporting system in FY 2000 which ages accounts receivable for medical
             providers, ESA still does not submit the cases to Treasury within the time frame
             established in the DCIA. The reporting system reflects that there are 1,209 accounts
             totaling $672,133 that had been delinquent for more than 180 days as of September 30,
             2001. Only 40 of the 1,209 accounts, totaling $137,717, were submitted to Treasury.
             That means 1,169 cases totaling $534,416 have not been submitted to Treasury as of
             September 30, 2001.

     With respect to Back Wage accounts receivable, this recommendation remains resolved and
     open. With respect to the BLDTF medical provider accounts receivable, this recommendation
     remains unresolved pending the submission of a corrective action plan, including time frames, as
     to how ESA will ensure that the programs listed above will achieve substantial compliance with
     the DCIA.

     Management’s Response:

     ESA Wage Hour Division Response

     Throughout FY 2001, Wage and Hour staff, in conjunction with SOL, have made extensive
     efforts to identify potential Back Wage Debt Collection cases. When appropriate, Regional
     Offices have issued demand letters and letters to inform employers that their debts will be
     transferred to Treasury in 60 days if they do not pay or set up a repayment plan. In response to
     these letters, the Regions have collected the back wages in many cases and set up repayment
     plans for others.

     We currently have a number of debts ready to be transferred to Treasury, and we anticipate that
     the modified Debt transfer module will be released in late December 2001. As soon as this
     module is released we will transfer all debts currently eligible and continue transferring debts
     approximately once per month from that point on. If for any reason the release of the corrected
     debt-transfer module is not able to process the electronic transfer of our debts to Treasury,
     Wage and Hour will complete the manual transfer of these debts no later than January 30, 2002,
     and will continue this manual process until such time as the electronic transfer is fully
     operational.




OIG Report No. 22-02-004-13-001                                                               Page 73
                                           CFO FINDINGS AND RECOMMENDATIONS
     OIG Conclusion on Wage and Hour Division’s Response:

     We concur with the actions described by management. This recommendation is resolved and
     open. Closure is dependent upon substantial compliance with DCIA in FY 2002.

     ESA Black Lung Disability Response

     Disputed Medical Bills

     The audit findings reflect an accumulation of debts prior to availability of the Treasury
     Department as a collection agent. With the perfection of the DCMWC's information technology
     system during FY 2002, debts that cannot be confirmed or which are too old for effective
     enforcement will be identified and written off from the accounts receivable records. The
     substantial number of accounts for which it is not cost effective to pursue collection will also be
     identified and written off. These actions will significantly reduce both the number of accounts
     and the volume of the debts reported in the audit finding.

     Additional follow-up on remittance advice notices of overpayments and offsets against
     subsequent payments are expected to prevent current debts from advancing in age to the 180-day
     limit.

     By the fourth quarter of the current fiscal year, DCMWC expects to be in compliance with the
     requirement that debts over 180 days old are referred to the Treasury Department for collection.
     We recommend that this finding be resolved and open pending audit follow-up.

     OIG Conclusion on Black Lung’s Response:

     This portion of the recommendation will remain unresolved until DCMWC has removed the
     debts that either cannot be confirmed as collectable or are too old for effective enforcement from
     its records, and has effectively complied with the DCIA requirement that debts over 180 days old
     be referred to Treasury. The successful completion of these procedures is necessary for
     resolution and closure of this recommendation which will be reviewed during the FY 2002 audit.




OIG Report No. 22-02-004-13-001                                                                 Page 74
